<html>
<title> - METHAMPHETAMINE AND DATE RAPE DRUGS: A NEW GENERATION OF KILLERS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




    METHAMPHETAMINE AND DATE RAPE DRUGS: A NEW GENERATION OF KILLERS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 18, 2000

                               __________

                           Serial No. 106-264

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                   U.S. GOVERNMENT PRINTING OFFICE
74-706                     WASHINGTON : 2001

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                        Robert A. Briggs, Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California                 JANICE D. SCHAKOWSKY, Illinois
DAVID VITTER, Louisiana

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
           Sharon Pinkerton, Staff Director and Chief Counsel
                           Ryan McKee, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 18, 2000...............................     1
Statement of:
    Massell, Sam, president, Buckhead Coalition, Atlanta, GA; Liz 
      Flowers, Southern Regional Sexual Assault Coalition; and 
      Ned Harman, Family Victim..................................    10
    Saliba, Jason, Assistant District Attorney, Cobb County, GA; 
      Paul Howard, District Attorney, Fulton County, GA; John 
      Andrejko, Special Agent in Charge, Drug Enforcement 
      Administration; and Robert Gattison, Special Agent in 
      Charge, Atlanta, U.S. Customs Service......................    42
Letters, statements, etc., submitted for the record by:
    Andrejko, John, Special Agent in Charge, Drug Enforcement 
      Administration, prepared statement of......................    63
    Flowers, Liz, Southern Regional Sexual Assault Coalition, 
      prepared statement of......................................    17
    Gattison, Robert, Special Agent in Charge, Atlanta, U.S. 
      Customs Service, prepared statement of.....................    79
    Harman, Ned, Family Victim, prepared statement of............    26
    Howard, Paul, District Attorney, Fulton County, GA, prepared 
      statement of...............................................    57
    Massell, Sam, president, Buckhead Coalition, Atlanta, GA, 
      prepared statement of......................................    12
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, prepared statement of....................     5
    Saliba, Jason, Assistant District Attorney, Cobb County, GA, 
      prepared statement of......................................    44

 
    METHAMPHETAMINE AND DATE RAPE DRUGS: A NEW GENERATION OF KILLERS

                              ----------                              


                       MONDAY, SEPTEMBER 18, 2000

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                       Atlanta, GA.
    The subcommittee met, pursuant to notice, at 9 a.m., in the 
Atlanta International School, Atlanta, GA, Hon. John L. Mica 
(chairman of the subcommittee) presiding.
    Present: Representatives Mica and Barr.
    Staff present: Sharon Pinkerton, staff director and chief 
counsel; and Ryan McKee, clerk.
    Mr. Mica. I would like to call the House Subcommittee on 
Criminal Justice, Drug Policy, and Human Resources to order. 
This morning, we are conducting a field hearing in Atlanta, Ga. 
The order of business will be as follows: I will start the 
proceedings today with an opening statement, yield to other 
Members for opening statements.
    We have two panels today and they will be recognized 
accordingly. The title of today's hearing is ``Methamphetamine 
and Date Rape Drugs, A New Generation of Killers.'' And this 
hearing is a part of a series of national field hearings that 
our subcommittee has conducted throughout the United States in 
an effort to get a handle on what is happening with illegal 
narcotics and drug abuse and narcotics trafficking in the 
United States.
    It is my pleasure to be here in the State of Georgia, which 
is the closest neighbor to my home State and my district, which 
is neighboring on the south. I did not bring--well, I guess I 
did bring a little of this weather in the plane last night, but 
it is on its way away, fortunately. But it is good to be here. 
And also be here to discuss one of the most pressing and 
serious issues that faces our Nation and that is the problem of 
serious drug threats that we have, not only in Atlanta, but 
from one end of the country to the other.
    As chairman of the House Criminal Justice, Drug Policy, and 
Human Resources Subcommittee, I have traveled across the 
country to examine the epidemic that we now face in so many of 
our communities. I am pleased to be here this morning at the 
request of Congressman Bob Barr. Mr. Barr has served as vice 
chairman of the panel, he has had this responsibility for about 
18 months in tackling, again, a most difficult problem facing 
our Nation and communities. And I appreciate his leadership.
    I want to apologize, we have done a series of hearings and 
since he is vice chairman and part of the leadership of the 
subcommittee, his community unfortunately is the last to have 
this hearing, so I appreciate both his patience and 
understanding. And also his commitment to working to find 
viable solutions to the problem we face. We would not be here, 
again, without his leadership or where we are in the progress 
that we have made in Washington.
    At today's hearing, we will take a close look at the 
continuing drug crisis, and its impact both in Georgia and 
Atlanta and this region. Has the explosion of so-called club 
drugs hit Atlanta, impacted Atlanta and its neighbors, or is it 
sneaking into your community unnoticed and, as they say, under 
the radar? Either way, I urge everyone in this community to 
identify and prevent this scourge.
    As we will hear today, dangers to the communities and our 
loved ones are very real. Club drugs, which also go by the 
names, the common names we have heard of, such as Ecstasy, 
Special-K, Meth, GHB and roofies increasingly are the illegal 
drugs of choice for our young people, particularly at all-night 
dance parties which are referred to as raves. Club drugs 
include a wide variety of illegal narcotics, sometimes coupled 
with abuse of prescribed drugs. Some are stimulants, some are 
depressants and some are hallucinogenic. They all are dangerous 
and can be serious and have immediate and permanent health 
consequences. And as we have noted, unfortunately many times, 
result even in death.
    In many respects, club drugs can be just as bad or worse 
than crack cocaine, even though many youth seem to think or are 
convinced otherwise. The drugs are cheap, readily available, 
and often considered by users to be recreational and non-
dangerous. And that is probably most dangerous.
    Some users are able to continue to function in their work 
and social activities, at least for a while. Because of this 
perceived low risk and delays that may occur before 
experiencing noticeable harms, club drugs have become a 
representation of really an insidious national threat.
    According to Dr. Alan Leshner, who has appeared before our 
subcommittee on several occasions--he is also the Director of 
the National Institute of Drug Abuse, also referred to as NIDA. 
Dr. Leshner is quoted as follows: ``Young adults believe club 
drugs can harmlessly enhance their experience at dance parties 
and raves, but there is no safe way to use any of these drugs. 
There is no such thing as harmless club drugs, and no such 
thing as recreational drug use.'' He is one of our foremost 
experts, and that is his opinion.
    This concern is receiving increased Federal attention. NIDA 
has increased funding for club drug research by 40 percent to 
$54 million. NIDA also created a Web site, www.clubdrugs.org, 
to educate the public. Still more efforts are needed at all 
levels, local, State and Federal.
    One club drug that deserves close attention, and our 
subcommittee has been reviewing the incredibly growing problem, 
that is Ecstasy. Ecstasy is also known as MDMA or the hug drug. 
It is very popular with some teenagers. Some take Ecstasy for 
its quick high, enticing the user to dance or engage in 
activities all night. It speeds up a person's heart rate and 
body temperature. These characteristics, along with impaired 
judgment, make for a very dangerous situation at these all-
night dance clubs.
    According to NIDA, Ecstasy poses long-term, adverse 
physical risk. Brain imaging studies at Johns Hopkins 
University show that Ecstasy can damage the brain cells that 
produce body chemical serotonin. Serotonin is responsible for 
memory and thought process. We do not know, in fact, that these 
brain cells regenerate. In fact, some of the information that 
we have received show that there is, in fact, permanent damage. 
Consequently, Ecstasy may be causing long-term memory loss in 
thousands of American young people, without these young people 
having any idea of the damage that is being done to them.
    A survey of high school students indicates that Ecstasy use 
has increased 55 percent just from 1998 to 1999. It is 
estimated that 8 percent of high school seniors have used 
Ecstasy at least once, a figure that is up 2 percent from 1 
year ago. GHB, or G, or Rohypnol or roofies are illegal drugs 
notorious for their use in date rapes and other crimes. These 
drugs are odorless, colorless and tasteless. They can be 
slipped unnoticed into a drink. These dangerous drugs sedate 
users, rendering them defenseless. They vary in purity and 
potency. Overdoses are actually very common today. Dozens of 
deaths have been reported.
    Methamphetamine, also known as meth, speed, crystal, ice or 
crank, is a very highly addictive stimulant. Meth, we are also 
experiencing incredible national explosion with, and meth can 
cause anxiety, paranoia and cardiovascular problems. 
Unfortunately, it can be mixed at home, the recipe can be found 
on the Internet, and unfortunately the ingredients are highly 
volatile, as we have seen. There have been numerous reports of 
lab explosions in home basements and garage production 
facilities.
    For many users, club drugs are considered cheap. For 
example, an Ecstasy pill can cost about $20. Some pushers 
simply give them away to lure their victims into drug abuse and 
addiction. Young users often mix club drugs with other drugs 
like LSD, PCP or heroin. This can lead to incredibly tragic 
results. Most young users do not realize how harmful club drugs 
or mixtures can be.
    Research findings indicate that misperceptions of risk by 
young people are strong predictors of drug abuse. We need to 
make the message very clear in all of our communities, club 
drugs are deadly, and our young people should be warned, and 
others, adults, to stay away from them.
    The amount of Ecstasy entering the United States is 
increasing at a phenomenal rate. In fiscal year 1998, the U.S. 
Customs Service seized an estimated 750,000 doses. Last year 
that quadrupled to 3 million doses. In the first 5 months of 
the year 2000, the U.S. Customs Service seized over 4 million 
doses.
    Club drugs continue to be available from multiple sources, 
not just local dance clubs. Teenagers can now order them 
online. In just a few minutes, we will hear testimony, and we 
will also see how teenagers can order these drugs online and 
how they have ready access to these drugs throughout our 
communities.
    In just a few minutes, a teenager can locate a Web site 
that will ship club drugs directly to his or her house or post 
office box. The subcommittee has also conducted hearings in 
Washington on the problem we have of distribution of these 
narcotics, through legal, even U.S. Postal packaging service.
    Our subcommittee also has conducted dozens of hearings on 
topics of drug control and illegal drug use. Many of them are 
field hearings like this one. We are continuing to examine drug 
policies and programs at the Federal level, the State level and 
the local level. Drug abuse has now taken a toll of more than 
16,000 American lives in 1 year, and the cost to society is 
more than $110 billion annually. In fact, our subcommittee 
reviewed the most recent statistics on drug-related deaths, 
which revealed a horrifying fact, and we are going to announce 
some of these figures tomorrow in Washington.
    In 1998, related deaths to drug abuse, drug overdose 
deaths, were 16,925. The first time in the history of our 
Nation, they exceeded homicides which, for the same year, were 
16,914. This unfortunately is an ongoing and growing tragedy in 
America which must be stopped.
    I know that our vice chairman and my colleague, Mr. Barr, 
and I share a strong commitment to doing everything we can to 
assist our local communities, State, our enforcement, 
prevention, education efforts. We want to listen today about 
the local problems, the local successes, and find out what 
works best, and what we can do in a cooperative effort with 
these officials to find answers to serious problems that we are 
facing. And I always say that all the answers are not found in 
Washington, they are found through individuals throughout 
America who have good ideas, good approaches and 
recommendations that we can incorporate into our Federal 
agenda.
    I want to thank all of our witnesses today for their 
participation, for their willingness to share their ideas and 
their experience. And again, I am most grateful to our vice 
chairman of our subcommittee for his leadership on this issue, 
and invitation to be in Atlanta today.
    And with those opening comments, I am pleased to yield to 
the gentleman from Georgia, Mr. Barr.
    [The prepared statement of Hon. John L. Mica follows:]

    [GRAPHIC] [TIFF OMITTED] T4706.001
    
    [GRAPHIC] [TIFF OMITTED] T4706.002
    
    Mr. Barr. Thank you, Mr. Chairman, and welcome back to 
Georgia. This is the second visit by Chairman Mica and this 
subcommittee to the Atlanta area during this 106th Congress, 
but it is by far not the second trip that the chairman has made 
on behalf of the subcommittee. I do not know what the 
percentage is, Mr. Chairman, but I know it is a very 
substantial percentage of the hearings that Mr. Mica has held 
on matters that are within the jurisdiction of this 
subcommittee outside of Washington.
    While that may not be unique, other subcommittees and 
committees hold field hearings in other parts of the country, I 
think the frequency with which Mr. Mica conducts these hearings 
outside of the Washington, DC, area is unique. And it is a 
tribute to his understanding of the problems that are faced by 
this subcommittee and by Washington, and also reflects his 
understanding that, in order to develop solutions to these 
problems, you need to do more than sit inside the beltway and 
discuss theories and policies. You need to be out in the 
community listening to the men and women who deal with these 
problems day in and day out, who are affected most deeply by 
them. They cannot always come waltzing up to Washington and 
testify up there before the bright lights and the beautiful 
committee rooms. They are working men and women, they have 
families, they cannot just pick up and leave. And Mr. Mica has 
recognized that, and that is why we hold many hearings all 
across the country.
    About a little over a year ago, Mr. Mica joined us in 
Smyrna for a hearing looking at another aspect of the work of 
this subcommittee, and it had to do with immigration policies 
and illegal immigrants in our communities. Today we are here in 
this beautiful facility, the Atlanta International School, and 
I would like, certainly on behalf of the chairman and the rest 
of the subcommittee, extend our thanks to the staff of the 
school here for making this beautiful facility available for 
this hearing today.
    Another hallmark of the Mica subcommittee that brings us 
this hearing today is the fact that his panels are consistently 
very broad, very objective and very deep in terms of the depth 
of experience and the type of experience that the witnesses 
bring to bear to the subcommittee. He does not always go back 
to the same well and bring the same people, the same type 
people in over and over and over again. He recognizes that the 
problems that this subcommittee faces manifest themselves in 
many different ways and change constantly over time. And the 
chairman reacts to that by bringing in different witnesses from 
different backgrounds reflecting the many-headed nature of the 
drug problem in particular today.
    And the two panels that the chairman and the outstanding 
staff, with our counsel, Sharon Pinkerton and Mr. Gil Macklin 
who is here, down here accompanying the chairman as well, 
attest to their understanding of the issue. We have two very 
distinguished panels, and Mr. Chairman, I know you are going to 
introduce them but let me just say that it is an honor to be 
with them. We appreciate--I appreciate, and I know you do as 
well, the sacrifices they make day in and day out addressing 
this problem in so many different ways. And we certainly 
appreciate their taking some time from those very, very 
important activities to be here with us today to share their 
perspective on the problem that we face with regard to these 
types of drugs in particular, and to help us develop better 
solutions to address them.
    The problem of so-called club drugs is apparent in the very 
name that is given to them. They are disguised by very benign 
sounding words such as club drugs, designer drugs. That was a 
term that was coming into vogue when I served as U.S. attorney 
here in Atlanta back in the late 1980's. And the names that are 
given to these killer substances belie their effects. And the 
way they are packaged belies their effects.
    The drug Ecstasy, for example, the chemical name is so long 
and so convoluted, I cannot even pronounce it. The chemical 
name for Ecstasy, just as one of these drugs, is 3,4-M-e-f-y-l-
e-n-e-d-i-o-x-y-m-e-t-h-a-m-p-h-e-t-a-m-i-n-e. It is very 
difficult to say. So those that traffic in these drugs, those 
that deal them to our kids, those that cause the death of our 
kids package them in very different ways. They come up with 
pills in bright colors with benign symbols on them, symbols 
that are recognizable to kids that have nothing to do with 
drugs. Commercial symbols that they steal.
    I know that, in particular, Ecstasy sometimes, they will 
get these bright-colored pills with commercial logos on them, 
such as the Mitsubishi symbol, the Rolex watch symbol, cartoon 
characters such as the Pink Panther and all sorts of other 
things designed very clearly not to convey to the young person, 
or whoever it is that is taking it that this is death. It does 
not have a picture of the Grim Reaper on it, but it might as 
well.
    But of course, those who deal in these substances know 
that, if the truth were known, that they would be out of 
business, so they disguise the truth. They package these drugs 
in very benign format and do not tell the kids the lasting 
damage or the immediate threat that they face by taking these 
drugs.
    Yet they are used with increasing frequency. In this very 
area, we have--one of the guests that we have, one of the 
witnesses we have today is former mayor of Atlanta, Sam 
Massell, who has been very active for many years in this very 
community, in the community of Buckhead, and he is very well 
versed in the particular problems involving these type of drugs 
and other drugs that are used with frequency in the so-called 
night club scene and youth dance halls and so forth. And he 
knows, as all of our panelists do today, as well as you, Mr. 
Chairman, that club drugs are not club drugs, they are death. 
Designer drugs are not designer drugs, they are death.
    And the men and women that are here today, unlike many in 
Washington, understand that these are a threat and that we need 
to take action. And that we need to be out there aggressively 
fighting this scourge. And they are doing so. The men and women 
that you have brought here today, Mr. Chairman, the parents, 
the community leaders, those involved in rehabilitation 
efforts, the law enforcement and prosecution folks from the 
Federal and our local government levels illustrate also very 
aptly the nature of addressing this threat. It has to be a team 
effort. It does not affect us just at one level of government, 
it does not affect just one household or one community. It 
affects all of us. And bringing to bear the combined wisdom of 
these and so many other folks whose time did not permit them to 
be here today, I think, Mr. Chairman, will help us much more 
than some study inside the beltway up in Washington talking 
about great theories of drugs.
    So I appreciate very much your work in bringing us here 
today, your continued commitment to addressing in a very real 
sense these problems such as methamphetamine and other drugs. I 
appreciate very much the work of the subcommittee staff in 
pulling together these very distinguished panels, and the 
facilities that enable us to be here today. It is an honor to 
be here and to welcome you once again to the Atlanta area, Mr. 
Chairman, for a very worthy cause. And again, I appreciate very 
much the witnesses that we will be hearing from today. And I 
would ask unanimous consent to include a more complete 
statement in the record.
    Mr. Mica. Without objection, the additional complete 
statement will be added to the record. Mr. Barr also moves that 
the record be open for a period of 2 weeks for additional 
statements from Members and we also invite the public or other 
interested parties to submit through the Chair or Mr. Barr 
additional comments or statements to be included in the record. 
Without objection, it is so ordered.
    It is good to be back, Mr. Barr. I do not know if I told 
you that, maybe the first time I came to Atlanta--I was 
thinking about it last night when I flew in to the airport 
here--it was with my father. It was about 41 years ago. I think 
it was about 1959. I participated in a debate tournament at 
Emory University. When we arrived at the airport, it was a 
small sort of a shed-type airport with wood benches. I remember 
very distinctly. We were one of the few people in the terminal.
    And as I drove through Atlanta last night, I thought, who 
would have ever thought that it would be one of the most 
phenomenal cities, not only in the country, but in the world, 
and through some of your leadership and community leadership we 
see represented here, it truly is. And it now faces, like many 
other great communities, a serious challenge, and that is 
illegal narcotics which is tearing up families and communities 
and causing destruction and death. So I am pleased to be here 
and join you again in this community to address some of these 
problems.
    With those comments, I also want to state that we are a 
subcommittee of the House Committee on Government Reform. We 
are an investigations and oversight subcommittee of the U.S. 
House of Representatives. In that regard, we do swear in our 
members. You will be under oath. I do not think it will be 
necessary to run the clock on these three witnesses in this 
first panel. But we will try to put lengthy statements or 
documentation in the record at request through the Chair, if 
you would, please.
    With those comments, let me welcome our first panel. Our 
first panel consists of Sam Massell, president of the Buckhead 
Coalition; Liz Flowers who is with the Southern Regional Sexual 
Assault Coalition, and Ned Harman, who will talk about a 
personal perspective of the question before the subcommittee 
today, and his unfortunate experience as a family victim.
    With those comments, let me welcome our three panelists of 
witnesses. If you would please stand at this time to be sworn. 
Raise your right hands.
    [Witnesses sworn.]
    Mr. Mica. The witnesses answered in the affirmative. Let 
the record reflect that.
    Again, welcome on behalf of our subcommittee. I would like 
to recognize first for a statement Mr. Sam Massell, president 
of the Buckhead Coalition. Welcome, sir, and you are 
recognized. Now we may have to pull those mics up as close as 
we can.
    Mr. Massell. This mic?
    Mr. Mica. I think this is the one you are on.

   STATEMENTS OF SAM MASSELL, PRESIDENT, BUCKHEAD COALITION, 
  ATLANTA, GA; LIZ FLOWERS, SOUTHERN REGIONAL SEXUAL ASSAULT 
            COALITION; AND NED HARMAN, FAMILY VICTIM

    Mr. Massell. All right. Well, I will talk loud, if that 
works.
    Mr. Mica. I think it picks you up.
    Mr. Massell. Thank you. I am Sam Massell, Mr. Chairman and 
Congressman Barr and staff. I appreciate the opportunity of 
being with you. As mentioned, I am the president of the 
Buckhead Coalition and former mayor of the city of Atlanta.
    I would like to introduce you to the coalition, which is a 
high-profile, non-profit civic organization made up of 80 chief 
executive officers, or equivalent, of major firms in this north 
Atlanta community. Buckhead is all within the corporate limits 
of the city of Atlanta, but is fast becoming the skyline of the 
metropolitan area. It now has a population of 66,000 residents, 
houses, diversified businesses and 16 million square feet of 
offices, offers 5,000 hotel rooms, has 1,400 retail stores and 
over 16,500 multi-family units.
    It can also brag of having the largest Presbyterian church 
in the entire country, the largest Episcopal congregation in 
American, the third largest Conservative Jewish synagogue in 
the United States, 2 of the largest Southern Baptist churches 
and 22 other proud houses of worship.
    We are known for our beautiful homes, extensive shopping 
options and excellent dining establishments. We are also known 
as the night-life district of north Georgia. And this is what 
prompts me to participate in your hearing today, as night life 
and drugs are almost synonymous in the eyes of some.
    The complexity and magnitude of the subject warrants 
congressional consideration, so we thank you for initiating 
this hearing and inviting us to testify. Our leadership 
welcomes an opportunity to get ahead of the curve, and we think 
only a public-private partnership can solve the situation.
    Our night-life area, known as the Village, is the location 
of over 100 establishments that have alcoholic beverage 
licenses within a 10-block section of Buckhead. Some are 
restaurants, but many are bars offering little more than a 
place to congregate with an atmosphere of revelry. City 
ordinances generally allow them to serve alcohol until 4 a.m. 
On weekend nights, cruising automobiles gridlock famous 
Peachtree Road, our major north-south artery, a distance of 
approximately 1\1/2\ miles. The related noise, trash and 
misbehavior dramatically damages quality of life for the 
numerous and nearby residents.
    Many thousands of young people congregate in the area 
searching for a ``high.'' In the last couple of years, a half 
dozen party-goers have been killed here by hit-and-run, gun or 
knife. Our State law requires that a person be 21 years of age 
to buy alcohol. However, on otherwise slow days, some of the 
clubs advertise 18 year-old or college nights, where ostensibly 
their profit is from entrance fees.
    Business leaders, neighborhood activists, the ministry, 
civic groups and some elected officials have campaigned for 
years to tame this phenomenon. The trend, however, has been an 
acceleration of the excesses. Although local police have 
recently been more aggressive reducing the crowd size, there is 
a serious possibility that the resulting reduction in alcohol 
sales may be replaced with alternative business practices.
    Sadly, it should be noted that local government has even 
less power to control hours, age and other restrictions on 
establishments that do not sell alcohol; thus, the conversion 
of so-called juice bars--establishments with entrance fees that 
admit all ages and operate through the night into the next 
morning, selling $4 bottled water and providing the environment 
for drug consumption, which will put lives at an even greater 
risk. This popular fad is occurring at South Beach in Miami, 
and it can be anticipated in other entertainment venues, like 
Georgetown in D.C., the French Quarter in New Orleans, and the 
Village in Buckhead.
    It is certainly unfair to the unsuspecting, and unsafe for 
the unconcerned. Although our night club patrons come from all 
over the State and include national and international tourists, 
large numbers attracted here are believed to be college 
students, particularly from Georgia State and the Atlanta 
University Center. In our discussions with academic leadership, 
we have become keenly aware of physical and mental harm 
resulting from ``binge'' drinking and ``rave'' dancing and 
related drug consumption. We are convinced that if left 
unchecked, the cowardly date rape drug and other illegal 
substances will embarrass and greatly sadden the elders of this 
generation.
    The ``club drug'' craze has not yet reached epidemic 
proportions here, but conditions are ripe for this to occur. 
And such exposure as this hearing can alert the powers to be on 
the need for action. We thus welcome help from all quarters to 
derail this train before it runs through our community.
    Again, I thank you very much for the opportunity of 
appearing before you.
    Mr. Mica. Thank you for your testimony, Mr. Massell. And I 
will turn to our next witness, who is Liz Flowers, and she is 
with the Southern Regional Sexual Assault Coalition. Welcome, 
and you are recognized.
    [The prepared statement of Mr. Massell follows:]

    [GRAPHIC] [TIFF OMITTED] T4706.003
    
    Ms. Flowers. Thank you, Mr. Chairman, and thank you 
Congressman Barr for the opportunity to be before you today. I 
am Liz Flowers. I currently work as a consultant to several 
women's organizations, and the southern region director of 
Rape, Abuse and Incest National Network. I am responsible for 
the startup of the Georgia Network to End Sexual Assault, a 
statewide coalition of rape crisis centers, and until April of 
this year served as its first executive director. I have 15 
years of experience in the field of women's health and safety.
    Somewhere in America, a woman is sexually assaulted every 2 
minutes, according to the U.S. Department of Justice. In 1996, 
307,000 women were victims of rape, attempted rape or sexual 
assault. And between 1995 and 1996, more than 670,000 women 
were the victims of rape, attempted rape or sexual assault.
    During that same time period, Georgia's rape crisis centers 
treated 3,593 sexual assault survivors. The Unified Crime 
Reporting Program [UCR], cites the highest female rape is in 
southern States with a rate of 88 victims per 100,000. Rape is 
a violent sexual act against a person's will. It is a felony. 
All evidence indicates that rape is a brutal act of violence 
and display of power rather than an act of passion or sexual 
gratification. Nearly 90 percent of all rapes involve threats 
of physical harm or the actual use of physical force. However, 
weapons are used in less than half of the reported rapes. Drugs 
are often used as a means for incapacitating the victim.
    One of the most startling aspects of sex crimes is how many 
go unreported. The most common reasons given by women for not 
reporting these crimes are the belief that it is a private or 
personal matter, or they fear reprisal from the assailant. In 
1996, only 31 percent of rapes and sexual assaults were 
reported to law enforcement officials, less than one in every 
three. Approximately 68,000 of rape victims knew their 
assailant, and approximately 28 percent of victims were raped 
by husbands, 35 percent by acquaintances, and 5 percent by 
other relatives.
    Further, one of every four rapes takes place in a public 
area or in a parking garage; 68 percent of rapes occur between 
the hours of 6 p.m. and 6 a.m. In 47 percent of rapes, the 
victims sustained injuries other than the rape injuries, and 75 
percent of female rape victims require medical care after the 
attack. At least 45 percent of rapists were under the influence 
of alcohol or drugs. About 81 percent of rape victims are 
White, 18 percent are Black, 1 percent are other races. While 9 
out of 10 rape victims are women, men and boys are also 
victimized by this crime. In 1995, 32,130 males, age 12 and 
older, were victims of rape or attempted rape.
    Teens 16 to 19 were three and one half times more likely 
than the general population to be victims of rape, attempted 
rape or sexual assault. For nearly 30 years, the anti-rape 
movement has worked to overcome misconceptions about the origin 
and nature of sexual assault, prejudice toward victims and 
stereotypes about perpetrators. We have insisted that victims 
do not ask for it through provocative dress or behavior. We 
have maintained that an adult woman raped by a husband or 
someone she knows deserves the exact same justice and support 
as the child raped by a stranger. And we have been loud and 
clear about the fact that rarely does a victim falsely report.
    Despite the horrendous realities of rape, prevailing 
misconceptions work against successful prosecution of rapes. In 
fact, only 3 percent of rapists are ever convicted of their 
crime. The standard defense of a rapist puts the victim on 
trial, and the facts are often lost in the questioning of the 
survivor's character as the contributor to the crime.
    For decades, perpetrators have misused sedatives in order 
to incapacitate individuals during a sexual assault. Alcohol 
has been used by perpetrators for years, but more recently, 
reports have identified several other substances used in drug-
facilitated rapes, including Gamma HydroxyButyrate [GHB]--I am 
going to mess that one up, I am just going to call it Rohypnol, 
scopolamine, burundanga and ketamine. These drugs come in 
varied forms such as powder, pill, tablet or liquid. Depending 
on the drug and its form, sedating substances may or may not 
have a noticeable color or odor.
    Individuals may react differently to sedating substances, 
depending on the dosage, their metabolism and sensitivity to 
the substance, and the presence of alcohol and/or other drugs. 
There are several tell-tale signs that an individual may be 
under the influence of a sedating substance. Impaired judgment, 
lowered inhibition, dizziness, confusion, drowsiness, impaired 
motor coordination, impaired memory, unconsciousness. If an 
individual appears extremely intoxicated after consuming a non-
alcoholic beverage or only a small amount of alcohol, they may 
have unknowingly ingested one of a number of substances.
    Gamma Hydroxybutyrate [GHB], with street names of Liquid X, 
Georgia Home Boy, Goop, Gamma-O and Grievous Bodily Harm is a 
central nervous system depressant, abused for its ability to 
produce euphoric and hallucinatory states, and its alleged 
ability to release a growth hormone and stimulate muscle 
growth.
    Although GHB was originally considered a safe and natural 
food supplement and was sold in health food stores, the medical 
community soon became aware that it caused overdoses and other 
health problems. GHB can produce drowsiness, dizziness, nausea, 
unconsciousness, seizures, severe respiratory depression and 
coma. GHB can be found in liquid form or as a white powdered 
material. It is taken orally and is frequently combined with 
alcohol. Abusers include high school and college students and 
rave party attendees who use GHB for its intoxicating effects. 
Many young women reportedly prefer GHB to alcohol because it is 
non-caloric.
    Some body builders abuse GHB for its alleged anabolic 
effects. Several cases have documented the use of GHB to 
incapacitate women for the commission of sexual assault. In 
1990, the Food and Drug Administration issued an advisory 
declaring GHB unsafe and illicit, except under FDA-approved, 
physician-supervised protocols. In March 2000, GHB was placed 
in Schedule 1 of the Controlled Substances Act. However, the 
ingredients to make GHB are still available and reports 
continue that abusers make and manufacture the substance in 
home tubs for recreational purposes. Many of these products are 
available over the Internet.
    Flunitrazepam, which is marketed under the brand name 
Rohypnol and is commonly known as roofies, belongs to the 
benzodiazepine class of drugs and has never been approved for 
medical use in the United States, but is legally prescribed in 
50 other countries, including Mexico and Colombia. It is very 
much like Valium, Librium and Xanax. Rohypnol's effects include 
sedation and muscle relaxation, however the sedative effects of 
Rohypnol are 7 to 10 times more potent than valium. The effects 
of Rohypnol appear 15 to 20 minutes after administration and 
last for approximately 4 to 6 hours. Some residual effects can 
be found 12 or more hours after administration.
    It is difficult to estimate just how many Rohypnol-
facilitated rapes have occurred in the United States. Very 
often biological samples are taken from the victim at a time 
when the effects of the drug have already past and only 
residual amounts remain in the body fluids. These residual 
amounts are difficult, if not impossible, to detect using 
standard screenings available in the United States. If Rohypnol 
exposure is to be detected at all, urine samples need to be 
collected within 72 hours and subjected to sensitive analytical 
tests.
    This problem is compounded by the onset of amnesia after 
ingestion of the drug, which causes the victim to be uncertain 
about the facts surrounding the rape. This uncertainty may lead 
to critical delays or even reluctance to report the rape and to 
provide appropriate biological samples for toxology testing.
    Also compounding the reporting and screening process is the 
victim's fear of willingly consuming a drug. While many date-
rape drugs are consumed without the victim's knowledge, clearly 
there are instances in which an individual has willingly 
consumed an illicit substance, but not with the intention of 
being raped or sexually assaulted. Rape with intentional drug 
use is under-reported. We may never know the true extent to 
drug-facilitated rapes.
    Even when reports are made and screenings completed, many 
State crime labs are so backlogged, they are unable to process 
the rape kit in a timely manner. According to testimony, rape 
kits can languish as long as 2 years. I do need to pause there 
and say, however, in Georgia, our crime lab is not backlogged 
at this time.
    Much of the information available about drug-facilitated 
rape is anecdotal, very little statistical information is 
available. Frankly, there are more questions than answers. Are 
DEA busts relevant? Did 1 million doses make it to the street; 
20 million? Does rape result in 20 percent of the cases in 
which GHB is used? Do the drugs lead to 10 cases a year or 
10,000? And in how many of these cases did the women 
voluntarily take the drug? Was alcohol involved? When there is 
alcohol, how much is consumed? How often do guys use alcohol 
and drugs as a, ``weapon,'' and how are they going about it?
    It is irresponsible for us to perpetually hype something 
like drugs that scare people, yet ignore much bigger problems. 
That is why research is so key to solving this. We have made 
people aware of the problem, and now we ought to figure out if 
there is one and what it looks like.
    In cases where the woman is drinking or using drugs of her 
own volition, are we talking about girls binging to the point 
of passing out and then being attacked, or are we talking about 
two beers which leads to some flirting, which leads to his 
room, which leads to rape?
    The blame for the crime is the same in both these 
scenarios, but the messaging and the solutions are a lot 
different. There is a big difference in perceptions of 
voluntary consumption and a drink that is secretly spiked. 
However, rape can occur in both of these situations. Drugs and 
alcohol, in and of themselves, do not cause rape. Let us take 
the time to find out what does and how we can stop the only 
crime in this country that continues to increase.
    Thank you.
    Mr. Mica. Thank you for your testimony. We will now 
recognize Ned Harman, who is going to relate to the 
subcommittee some of his personal experiences. Mr. Harman, you 
are recognized and welcome.
    [The prepared statement of Ms. Flowers follows:]

    [GRAPHIC] [TIFF OMITTED] T4706.004
    
    [GRAPHIC] [TIFF OMITTED] T4706.005
    
    [GRAPHIC] [TIFF OMITTED] T4706.006
    
    [GRAPHIC] [TIFF OMITTED] T4706.007
    
    [GRAPHIC] [TIFF OMITTED] T4706.008
    
    Mr. Harman. Good morning, Congressmen, ladies and 
gentlemen. Thank you for inviting me to participate in this 
hearing this morning. I would especially like to thank 
Congressman Barr for his fine representation of us in our 
district. I appreciate this opportunity to share my experience 
with GHB. This issue is one that affects every citizen in the 
United States, either directly or indirectly.
    My name is Ned Harman. I live on a farm about 50 miles west 
of here, close to Carrollton, GA. My youngest daughter, Holly, 
was a freshman at West Georgia College in 1996 when this 
incident happened that I am going to tell you about in a 
minute. I would like to show you a picture of her. When I speak 
to groups, I usually like to put a face on Holly. This was 
Holly's, I believe, high school graduation picture, I believe.
    Holly's nightmare, and ultimately ours, began October 18, 
1996. I was awakened by a phone call around 1 a.m. from the 
emergency room at Tanner Hospital, our local hospital there in 
Carrollton, GA. There was a lady that was a nurse there that 
attends our church. She recognized Holly when they brought her 
in and called me. We probably would not have known about it for 
a while later if she had not have been there that night. 
Anyhow, she said Holly had been brought in not breathing and 
with no heart beat. You cannot imagine my feelings at that 
moment. I felt as if I was dying, and at the end part of me did 
die. I probably drove 100 miles per hour getting to the 
hospital that night. I do not really remember much about 
getting there. When I got there, they had revived Holly, and 
she was on a ventilator but in a coma.
    Holly stayed at Tanner until about 5 p.m. that Saturday, 
the next morning Saturday. During that time at Tanner, Holly 
started having grand mal seizures every 5 to 10 minutes. And we 
were familiar with the seizures because our oldest son, Luke, 
had hydrocephalus and he had died when he was 16. And he had 
had seizures, maybe three, four or five during his lifetime. 
But we were not familiar with anything like what Holly was 
having, though. Like I say, every 5 or 10 minutes, she would 
have one and she would nearly jump off the bed. It is tough to 
watch somebody that you really love laying there, moving like 
she was moving and just being helpless to do anything.
    We found out later that Holly and one of her girlfriends 
had been in a local restaurant there in Carrollton. Holly was 
on a kick of drinking water like this, Evian water, and she had 
been doing it probably for a year or two, I guess. She had it, 
you know, in her hand a lot of time when she was around, she 
was just usually drinking water. Anyhow, she went to a party 
after the restaurant with her girlfriend, and one of the guys 
at the party put pretty close to--we do not know if it was pure 
GHB or whatever, but GHB in her bottle of water that she drank.
    Holly then went into convulsions and passed out. The boys 
would not let Holly's friend call 9-1-1, and they would not 
help her get her in the car. And she finally got somebody to 
take her across town to get a friend in an apartment, one of 
her roommates, to come back across town and help get her in the 
car to take her to the hospital. And during that time, there 
was probably 40 to 60 critical minutes that had gone by during 
this time.
    Getting back to the seizures, Tanner Hospital gave Holly 
phenobarbital and Dilanta to stop the seizures but nothing 
helped. Holly was next carried to Emory Hospital in Atlanta 
around 5 p.m. on that Saturday in 1996. Emory finally got the 
seizures stopped during the night. Holly was in the neurology 
intensive care at Emory.
    In the next room there, there was a lady that had a brain 
aneurism, and her daughter and I got to know each other waiting 
through those long hours in the waiting room there, and she was 
in the Secret Service out of the Miami field office, and she 
got them to fax something up on GHB. At that time I never had 
heard of GHB, I did not know what it was or nothing about it at 
all. And she faxed the information up, so we got familiar with 
GHB pretty quickly with the information they sent up.
    We found out it is more dangerous when it is mixed with 
alcohol, as some of the people have already said. Earlier 
during the night, Holly, at the restaurant, had had a couple of 
drinks, so those couple of drinks with the GHB also made it 
that much more deadly. The doctors told us that she would not 
live through the night, that Saturday night, but during the 
night she got a little better and squeezed her older sister's 
hand, and we were so happy for that hand squeeze that night. 
But Holly stayed at Emory from October 19th until December 23, 
1996, intensive care the whole time. I stayed with her there 
day and night. One Sunday morning, I guess it was, I guess 
maybe a week or two after we had been there, her heart beat 
went up to 170 to 185 beats per minute, and stayed that way 
until Thursday night. Every hour or two, they would give her a 
shot to bring the heart beat down and it would come down to 140 
or 150. I never thought I would be proud of 140-150 heartbeat, 
but we were glad to see it down that much.
    The doctors told us there that Holly never would come off 
the ventilator, but on December 23rd, like I say, we left Emory 
and went to Shepard's Spinal Hospital. Within a few days at 
Shepard's, we had her off the ventilator and she was bringing 
on her own.
    After being at Shepard's for approximately 2 weeks or so, 
Holly opened her eyes, and we thought she was coming out of the 
coma, because I had never been around anybody in a coma, 
either, but it was real strange she was still in the coma. 
About half the time she would have her eyes open, half the time 
they would be closed, approximately like that. And she would 
look straight at you, you would think she could understand what 
you were saying. But it was just sort of a blank stare in way, 
though, but she was still in a coma.
    The nurses and us, her family, for nearly 3\1/2\ years, 
turned Holly every 2 or 3 hours to keep her from having bed 
sores. Even after the ventilator was taken off, Holly had to 
have a catheter and G-tube the rest of her life.
    While at Shepard's on two separate occasions, her 
temperature went up to 107. They put Holly on a special 
mattress, filled with cold water, they can increase the 
temperature and get it real cold. It was just about freezing, 
the water, when you got to 107. They poured ice water down her 
G-tube, and rubbed her in alcohol, packed her in ice, all these 
kind of things to get the temperature down. The doctor told me 
that he had never seen one get to 107 without going into 
seizures, but Holly did not go into seizures, though.
    Holly left Shepard's May 1, 1997, we brought her back to 
Carrollton, GA, and put her in a nursing home, there at Pine 
Knoll Nursing Home in Carrollton. During Holly's stay at Pine 
Knoll, she was taken to Tanner Hospital, back where we had gone 
to originally that night, several times for pneumonia. In 
October 1998, Holly was taken to intensive care at Tanner 
there. She had a massive blood clot on her lungs. They told us 
she would not make it through the night that time, too, but she 
made it through the night.
    In January 1999, her heartbeat went down to about 25 beats 
per minute, and they told us, well, her heart's just finally 
wearing out. You know, she will not live through the night 
again. But on the next morning, her heart had started beating 
back normal again.
    On Wednesday morning, January 19, 2000, this year, at 7:30 
a.m., Holly made her final stop. This time it was to Heaven. I 
do not know why this happened to Holly, how she survived 185 
heartbeats, 107 temperatures, massive blood clots on the lung, 
numerous bouts with pneumonia, heart beats of 25. But Holly was 
a strong girl and a fighter.
    If anyone could have come out of a coma, Holly would have 
been the one that could come out. But God had other plans for 
Holly, and I believe God used Holly those nearly 3\1/2\ years 
to show other young people around in the community, the State 
and the country what the dangers of drugs are. Whether they are 
slipped to you without your knowledge or taken as a 
recreational drug.
    Holly had many, many friends. Hundreds of people came to 
visit Holly, a lot that did not even know her. Holly touched a 
lot of lives. Holly was a beautiful student with a bright and 
promising future. Like most young people, Holly thought she was 
invincible. These things only happen in New York, L.A., Miami, 
Chicago, Atlanta. Not around here, not in the country. But I am 
here to tell you, first hand, two young girls in our rural 
county have died from GHB from the same boys.
    Holly dreamed of becoming a physical therapist, getting 
married someday and having children. I dreamed of being at 
Holly's graduation from college, walking her down the aisles in 
marriage. I also had dreams of all the wonderful things you do 
with your grandchildren, like babysitting, playing ball, 
reading to them, take them to the park, riding bicycles, 
horses. None of these things will ever happen now.
    I miss Holly, her smile, her voice, her kind heart. You 
know that these tragedies not only affect the victim, the one 
that pays the ultimate price with their lives, but it touches 
so many other people. With Holly, it touched her mother, her 
father, her brothers, her sisters, grandparents, uncles, aunts, 
cousins, her boyfriend and countless numbers of friends. Our 
lives will never be the same.
    Our faith in God carried us through these long days and 
nights, weeks and months and years. But we have the comfort of 
knowing that Holly is in Jesus' arms now. Do not let Holly's 
and all the other deaths be completely meaningless. Fight the 
senseless death that claimed Holly and vindicate her by 
preventing others from suffering the same painful fate. I urge 
Congress to enact laws and strengthen existing laws that would 
be as tough as possible on dealers and users of these drugs. We 
must stop this epidemic in our country.
    Thank you.
    [The prepared statement of Mr. Harman follows:]

    [GRAPHIC] [TIFF OMITTED] T4706.009
    
    [GRAPHIC] [TIFF OMITTED] T4706.010
    
    [GRAPHIC] [TIFF OMITTED] T4706.011
    
    Mr. Mica. Thank you, Mr. Harman, for some very compelling 
testimony. Relating to the subcommittee your tragic personal 
experience and trying to make something positive from I know 
what has been a horrible personal tragedy. We appreciate your 
coming forward.
    Unfortunately, the last 18 months, I have heard countless 
stories from parents, not only before our subcommittee, but 
across the country, the same type of thing that is happening. 
And as you have heard from the statistics that we are going to 
release tomorrow for the first time in the Nation's history, 
deaths by drug overdose exceed homicides across the land. So 
this is repeated over and over and over again, not just in 
Atlanta and not just with your family, but with countless 
American mothers and fathers who have been subjected to this 
horror.
    Let me start, if I may, with this panel, back to Sam 
Massell. We have attempted in Congress to try to deal with this 
problem by addressing, of course, the supply side and 
restarting some of the efforts in keeping the illegal narcotics 
or the ingredients for narcotics from coming in to our borders, 
which is a Federal responsibility and Federal enforcement.
    But we have also tried to address the demand side. And we 
instituted several years ago a $1 billion, in hard taxpayer 
dollars, national media campaign. It is combined with a 
requirement for contributions, so it is a several billion 
dollar campaign that is unprecedented in its financial 
commitment and scope. We are in the process of evaluating the 
first year of performance, the first full year, of that 
campaign. Are you aware of that national anti-drug media 
campaign? Do you think it is effective? And maybe you could 
also comment on what you believe the Federal responsibility is 
in this total effort.
    Mr. Massell. I am aware of the media campaign, and I 
certainly think an educational effort is very important and 
meaningful. I feel our greatest need is one of enforcement, and 
that is what I meant by public-private partnership, whereas the 
civic leadership can call attention to the problems and the 
needs it takes government to actually curtail the criminal 
activities. And that is mostly what we need. And some of that, 
of course, can be performed through Federal bureaus that 
control drugs and other illegal substances, but much of it is 
at the local level of policing.
    Mr. Mica. One of the dilemmas that we face in Congress is 
Federal domination of that activity versus the State and local. 
I think you have alluded to a need for a partnership in trying 
to deal with this, as far as enforcement is concerned.
    Are there any specifics that you could cite, or any 
successful programs at the local level that you have seen, that 
are not necessarily here or something we should be mirroring, 
or some effort that we should support? You know, we have 
grants, we have other assistance to local enforcement agencies. 
Is there anything you would target with Federal dollars or 
resources in the enforcement area?
    Mr. Massell. I feel that when situations get to crisis 
stage, you need crisis controls. And I would refer to zero 
tolerance enforcement, as has been performed in New York very 
successfully. And I think that the local situation in our 
community, having been accused of a shortage of law enforcement 
people, could be aided by our Federal law enforcement people. 
If we have this shortage, which is not denied, as far as the 
numbers that were budgeted of some 400 law enforcement 
officers, and if you know, the government says they cannot or 
will not, or for whatever reason are not filling these slots, 
then they could be supplemented by law enforcement at the 
Federal level.
    Mr. Mica. We heard Mr. Harman talk about the need to go 
after the drug dealers, the people that deal in death and 
destruction. Do you feel we should increase our penalties, 
Federal penalties, for people who are dealing in large 
quantities of these obviously harmful narcotics?
    Mr. Massell. I am not knowledgeable enough on the present 
programs of punishment, but I do know that it needs cooperation 
from the court system as well as law enforcement. And just 
making the arrests, if the courts are not supportive, is not 
very meaningful. And in some instances, there has been 
suggestion that the courts were not as supportive as could be.
    Mr. Mica. Well, one of the problems we have had with this 
administration is we have tried to get them to prosecute drug 
cases at the Federal level, and they were declining through, I 
think, 1997, 1998, the numbers of drug cases that the feds were 
going after. After hammering away, we are now beginning to see 
an increase in some drug prosecutions at the Federal level, 
however a new phenomena we have found is the sentencing is 
going down, down, down. So rather than a severe and intensive 
prosecution, which we have now got swinging back and 
encouraging them to go after them, now the sentencing is going 
down, so that those who are committing these offenses are 
getting less severe sentences. And there is also this 
philosophy or prevailing theory that this is not a criminal 
problem, this is a health problem. What is your view?
    Mr. Massell. It has been my experience that if sentencing 
or the punishment for any criminal activity is what the public 
considers to be excessive, then you do not get as many 
convictions. So I am not an expert in this field, but I have 
seen this occur in some areas. And I think there needs to be 
balance. You have to start at the first effort, which is that 
of arrest. And that is the enforcement part, with which I am 
very concerned, and feel I need help, this community does. Not 
just in the drug area, but in some others as well, related to 
our night life.
    And we are not at the epidemic stage yet, but I can see 
this happening, and I would like to get ahead of the curve. So 
if we can get greater enforcement with local, with Federal, 
with State in between, and anybody else who will help. And we 
have had help, for instance, from the county with a Sheriff's 
reserve. They have come in and been very effective. But we need 
enforcement, we need accelerated, aggressive enforcement.
    Mr. Mica. Thank you.
    Ms. Flowers, you talked about the problem of the sexual 
assaults and how these crimes are on the increase. From a 
Federal legislative standpoint, do you feel that the laws that 
we have in place are sufficient, penalties sufficient, either 
dealing with narcotics which sometimes, as your testimony 
indicated, can lead to the being part of, I guess, the act that 
is committed? Do you feel that we have adequate Federal 
enforcement legislation? And then the other part of my question 
would deal with adequate Federal resources to deal with the 
enforcement?
    Ms. Flowers. I think I would be remiss at this particular 
point, in the 106th Congress, not to mention VAWA, or the 
Violence Against Women Act, which is, I think, about to come 
before the House within the next week, or never, apparently. 
The reauthorization of 1994 Violence Against Women is a huge 
and wide-sweeping piece of legislation which includes not only 
funding for nearly every battered women shelter and rape crisis 
center in the country, but also contains law enforcement and 
prosecution components, and this year includes a judicial 
component to deal specifically with how advocates and law 
enforcement and communities work together to reduce all of 
this. There is also a research component with it through CDC, 
and I think that piece is in Mr. Goodling's committee right 
now, and certainly that would be something for you all to look 
at.
    All of that is in some part contained within VAWA, which is 
something that we need at the community level, or even what we 
have right now goes away. In fact, if VAWA is not reauthorized, 
in Georgia, you will effectively shut down every battered 
women's shelter and rape crisis center, including the State 
coalition.
    One of the things that the State coalition does, in fact, 
with this Federal money is work with the program called SART, 
or Sexual Assault Response Team. It is a combination of the 
training program for law enforcement, it is not a warm, fuzzy, 
you know, hand-holding, this is what you do when a woman comes 
in and says she is raped, but a team of psychologists and 
criminologists and others who go in and work specifically with 
our law enforcement around the State of Georgia to identify 
specifically what a victim might look like when she has been 
drugged and has been sexually assaulted.
    Particularly with what we are talking about here, this is a 
really difficult piece for law enforcement. And then of course, 
the followup for prosecution to go with, because remember the 
victim has pretty much been incapacitated by this. Although she 
could be walking around and looking like she is functioning, so 
the people around her may not know in fact that she is nearly 
in a comatose state. Training law enforcement to do that, 
training folks to understand and public awareness campaigns 
about, you know, closed containers.
    If you look at these bottles of water right here on this 
table, Mr. Harman's bottle of water is exactly the invitation 
that is given to put something in. And it is just so easy to 
walk by and put something in that at a club. My open container 
here, you know, that kind of public training.
    Where sexual assault and the drugs come in, it is going to 
have to be a multi-issue sort of campaign. Because on one hand, 
you are dealing with the prevention message of drugs, but at 
the same time dealing with the prevention message of sexual 
assault, and helping society understand what rape and sexual 
assault is. So there is a double message. VAWA can help with 
that.
    On your point of additional Federal laws and, you know, 
things like that, the problem we are specifically having in 
Georgia--and I believe last year only two adult women who were 
victims, their cases were actually--they were found guilty. 
Part of that reason is, unfortunately, mandatory minimums. And 
we got tough on crime, which is, you know, philosophically a 
fabulous idea, but the rape conviction rate in Georgia has 
continually gone down since that happened.
    The problem with that is the public education piece of what 
people perceive to be rape and sexual assault, and are not 
willing to put away Johnny, local football hero, because he 
tried to push the limits too far in acquaintance rape, as most 
of these are.
    So I am not clear that, alone, toughening a law is where it 
is at, without actually coupling with that the messaging about 
prevention on both drugs and sexual assault.
    Mr. Mica. Well, how would you deal with mandatory minimums 
at the Federal level? I mean, how would you modify current 
mandatory minimums?
    Ms. Flowers. I believe that, in most cases, the Judges 
having the discretion to make those types of calls, including 
extended probationary periods. The recidivism on rape and 
sexual assault is 67 percent. So even if we lock somebody up 
and they get the maximum, they are back on the street, and 
without some programs that ease them back into society, it is 
probably going to happen again. And even in the case, I believe 
South Carolina has instituted, you know, chemical castration. 
That is not working, either. Because rape is not a physical, 
sexual gratification but a mental power and control, the 
castration is not doing anything.
    So I think that giving Judges discretion in programs that 
keep folks, you know, at least under surveillance for a longer 
period of time might be necessary.
    Mr. Mica. Well, the problem we have is trying to identify 
successful programs to put some of these people in, whether 
they are habitual sexual offenders or habitual drug offenders 
or users. And we are not finding very good success stories. Our 
subcommittee, I think, within the House and the Senate, the 
Congress would pour whatever funds we could or resources we 
could into successful programs.
    Now there is an exception with some of the faith-based 
programs, we have higher success rates, and we are trying to 
modify some of the law to allow the support which heretofore 
has not been available for some of these other groups. Are 
there any specific programs you can report to the subcommittee 
that are particularly effective that should have our support, 
and any modifications in our criteria for extending support to 
successful programs?
    Ms. Flowers. The short answer is, no. The longer answer is, 
even with the crime statistics that were released within the 
last 2 weeks, touting how all crimes across the board were 
going down. If you look specifically at rape and sexual 
assault, that was the one crime that actually went up in terms 
of numbers. And that has happened regularly. And we do not talk 
about it.
    So I think one of the things that we need to do, as a 
country, and certainly in Georgia, is we need to begin talking 
about it, and we need to be talking about rape and sexual 
assault as the heinous crime that it is. That is No. 1.
    No. 2, I think what can be done more in terms of resources 
and successful programs that have just started, are local 
prevention awareness and ad campaigns. A lot of the campaigns, 
one of them that you have talked about, in terms of the drug 
campaigns, tend to be created, you know, by some ad campaign 
that thinks that they have come up with the right idea, but do 
not talk to the folks in Carrollton, do not specifically 
address how the folks live and deal in that community.
    One of the things that we did here in Georgia was to spend 
about $40,000 on a public awareness campaign, first of all to 
find out what Georgians knew about sexual assault and rape, and 
it was pretty bad. It was actually horrible, what we came up 
with. But it allowed us to design an education program for 
Georgia, and now is probably going to be used by the entire 
south, because the demographics are so similar. And allowing us 
what to find out what resonates in our own communities, as 
opposed to some boilerplate prevention ad campaign that gets 
dumped on us, is the recommendation that I would make.
    Mr. Mica. Thank you.
    Mr. Harman, your daughter died the victim of illegal 
narcotics which were given to her. Was there any attempt to go 
after those who provided her these narcotics?
    Mr. Harman. Yes, he is in jail now. He got a big-name 
lawyer in Atlanta here to keep him out of jail, I guess, for 
maybe 2\1/2\, close to 3 years. Well, about 2\1/2\ years. He 
has been in jail about a year now. And I do not think he got 
much time. Truthfully, I did not keep up with it that much.
    Mr. Mica. Do you think the penalties are adequate? I have 
had parents similar to you tell me that, you know, they feel 
that if someone had used a weapon and destroyed their child, 
there would be a tougher penalty. Here they have used narcotics 
which led to just a horrible and painful death for your 
daughter and your family. And yet they get off with a lesser 
penalty. It seems that there is a growing family of victims 
that now are asking that there be some tougher penalties for 
people who are providing death and destruction to their family 
members. What is your opinion?
    Mr. Harman. I have got mixed emotions on it. I agree with 
what the other panelists said, in a lot of ways, and I am not--
I am strong on penalty on things. But I am not naive enough to 
know that we cannot stop the drugs in this country completely, 
unless there is a desire out there not to take drugs. That is 
the main thing. Until we can educate the people in this country 
against drugs, they have got to do that as the No. 1 thing, I 
guess. As long as there is a desire, they are going to get them 
somewhere, the people to provide it for them.
    But on the other hand, too, that it is too much in this 
country, to me, I guess, coddling the people that are the 
criminals, and do not look at the victims out there. I mean, 
whether it is the victim themselves or the victim's family or 
whatever like that, there is too many excuses for the criminals 
out there that, you know, they did this because of this, that, 
or whatever, their childhood, or whatever happened to them or 
how they were brought up or whatever. To me, you have to take 
responsibility for actions you do sometime in life, when you 
get old enough, whatever that age might be, you have to be 
responsible for what you do, no matter what your background or 
what other circumstances were.
    In that aspect, there needs to be something done. I do not 
have the answers for sure. And I know there is so much money in 
drugs itself, that it is going to be a real--just about 
impossible thing to do. There is a lot of fine judges, a lot of 
fine sheriffs, policemen, DEA, Customs, or whatever people out 
there. I am not saying there is not. But there is so much money 
involved out there and so much corruption that a lot of this 
stuff does not get arrested to start with. But after they are 
arrested, I think there needs to be some real stiff penalties 
for them.
    Like on the other hand, I think there are people out there 
that need to rehabilitate, for sure, before they get back on 
the streets, and there needs to be an education in the schools. 
I have gone to different schools around the State, some over 
there in Alabama, different civic organizations, churches, and 
spoke to a lot of young people about the water left open, water 
drinks, mixed drinks, Coca-Cola or whatever. If you are at a 
party, make sure, telling the young people to not leave your 
drinks, even with a friend. If it is an open drink served to 
you somewhere, you know, ask to open it yourself or whatever. 
So I have, you know, done a lot of that around the State. So 
there needs to be a lot more of that done.
    But still, I still go back to this, we need some strong 
drug policy for the dealers, the big dealers, the 
manufacturers, this kind of thing, so long as there is a desire 
to use these and need for them in the country, I know we will 
never block it out completely because people will provide it 
for them. But still, I would like to see as much as possible 
done to wipe out as much as we can.
    Especially, I think, illegal immigration, this kind of 
thing, reminds me of the Mexican border down there, I would 
like to see something done about--I do not think there is 
nothing done about so much illegal immigration coming across 
the border, which leads to so many drugs coming across the 
border like that. So many trucks that come across the border 
unstopped, you do not know what is in them, you know. I do not 
have the answer, but I think that something needs to be done.
    Mr. Mica. It is a Federal responsibility. Well, I 
appreciate that. I particularly want to thank you for your 
testimony. And also for your personal efforts to try to turn 
this horrible tragedy into something positive. I again thank 
you on behalf of the subcommittee.
    Let me yield now to the gentleman from Georgia, Mr. Barr, 
for questions.
    Mr. Barr. Thank you, Mr. Chairman.
    What you all have told me today, I mean it really is very, 
very enlightening. You do not think of putting your life at 
risk if you are in a commercial establishment and you happen to 
leave a bottle of water open, rather than closed. And that you 
cannot even, in that sort of setting, trust leaving a drink on 
the table for a few moments while you go to the restroom. It 
really is tragic that we have to worry about such things, but 
obviously we do. And it is one thing for us to talk about it, 
but it is quite another to sensitize young people who, as you 
said, Ned, think they are invincible, and do not think of these 
things. But to sensitize them to be cognizant of just the 
specific act of not leaving an open drink somewhere. It may 
cost a few dollars to get another one when you come back, but 
it is certainly a small price to pay for possibly saving your 
life.
    But those are the realities, and I think, Ms. Flowers, what 
you mentioned about education is very, very important. And you 
mentioned, I think you mentioned specifically some of the 
national advertising that General McCaffrey and the Office of 
National Drug Control Policy have instituted with Federal 
funding over the last few years. And I think you mentioned 
that, while it is all well and good, I think they have come up 
with some very, very effective advertising to alert people to 
the national drug problem. It is on a very broad level. Is 
there anything specifically that you could suggest to us, in 
terms of better directing some of those moneys to local 
communities? Mr. Harman mentioned that--I think, I do not want 
to put words in your mouth--but one of the things that Holly 
and his family faced was a lack of understanding during some of 
those critical minutes and hours and days over exactly what it 
is, what it was that they were facing. Are there some specific 
steps that you can recommend to us when we look, for example, 
to next year's funding for the National Drug Control Policy 
Office, in terms of how to better direct those moneys, to 
better educate local law enforcement, parents, local educators, 
bar establishment owners and so forth?
    Ms. Flowers. I think you are on the right track with that, 
yes. I think the money needs to get to the local community. I 
am very much a proponent of local focus groups, and really 
finding out what resonates with people in various communities.
    One of the things that we did in Georgia was bring in 
campaigns that were being used in all different States, 
nationally, because we thought, well, you know, if it is not 
broke, do not fix it, and if these campaigns work to educate 
people about sexual assault and what can happen, we will just 
purchase those ads and run them here.
    What we found out for Georgians is that it did not work for 
them at all. We conducted focus groups in north Georgia and 
rural areas, we did male-female. And in fact, the one ad, in 
fact, that was running out in California had the exact opposite 
effect of what we thought it should have in front of Georgians.
    And so one of the things that I think is missing, when we 
put money into a campaign, like CDC, and ask for prevention, it 
is for them, so you know, it all gets boggled up. You all know 
this because you work with it every day--in some State agency 
someplace, and it never--either does not get to the local 
community or the local community is not running a focus group 
and there is some thing that is put out for them and they are 
told, you know, run an ad. And so a bunch of well-meaning 
people come together, and they put something out, but nobody is 
listening because it does not resonate with them.
    And that was my point about, does it resonate in 
Carrollton? Are there ways that, through State coalitions on 
maybe a combination of drug coalitions, the anti-drug 
coalitions and anti-rape coalitions, that they come together 
and choose some target communities to put together focus groups 
and run those, and find out what is going to work. Because I 
think Mr. Harman's point is really good. I mean, trying to 
stamp out all the drug dealers is the wrong end of it. Let us 
educate folks on this end to say, why use it to begin with?
    And I think then, in combination with the community and the 
national overlay of media, we might actually be getting at 
something.
    Mr. Barr. One of the things you mentioned in your written 
testimony was, ``Although GHB was originally considered a safe 
and natural food supplement,'' and then you go on. When was it 
considered that? How long ago are we talking about?
    Ms. Flowers. Just a few years ago. I do not have the exact 
year, but it was sold in health food stores, mostly for body 
builders. Actually, I think just in the past 2 or 3 years, was 
still pretty available, and sometimes you can still get the 
different components of GHB, either through your health food 
store. There is something called, I think it is GLB, it is a 
precursor--I think I have got that initial right--a precursor 
to GHB, which is still available in health food stores. And so 
you can go and buy that and overlay a couple of other things on 
it and basically have GHB again.
    I mean, we are over here talking about illegal drugs coming 
across the border when I can go to Lindburgh Plaza's health 
food store and probably pick up everything I need.
    Mr. Barr. You mentioned also that some standard screenings 
are not available in the United States that might do a better 
job and a quicker job of identifying some of these substances. 
And here again, as Mr. Harman was indicating, this was perhaps 
one of the problems, or was one of the problems. We will never 
know whether it could have saved Holly's life or not, but it 
was one of the problems, not knowing exactly what they were 
confronted with at the time that this happened. And I remember 
that tragic weekend also, Ned, getting a call from Ms. Brock, 
our representative there. And it was a great deal of 
uncertainty about what we were faced with, what the law 
enforcement was facing, what the doctors were facing, what the 
family was facing.
    Are there screenings that are available? Is it a matter of 
just not having the proper funding, or are priority decisions 
being made so that we are putting money at the local level, for 
example, into other areas and not purchasing the equipment that 
needs to be purchased to better identify these substances?
    Ms. Flowers. I think it is a combination of both. On an 
international level, there is a team that has put together a 
new rape kit, which I do not know if you are familiar with the 
standard rape kit we use here in Georgia, it is an envelope 
about this big (indicating), and it contains some slides and 
swabs that cost about $7.50. And the law enforcement is 
responsible for transporting it to and from the hospital. 
Anybody can buy the rape kit itself, however some law 
enforcement agencies, because of their desire to control the 
process, will tell hospitals, you are not allowed to buy it. So 
they have to wait for law enforcement to come with the rape 
kit. That is a delay, etc.
    On an international level, they have got a--it is a more 
expensive rape kit, but it has got everything contained in it.
    Mr. Barr. Excuse me, when you say more expensive, what sort 
of magnitude are we talking about? Are we talking about a few 
dollars?
    Ms. Flowers. Our rape kit is $7.50, and this one would 
probably be, I would suspect, in the $40 range, but I do not 
know what the mass production, if the cost would come down on 
that or anything. You know, if everything else, the price would 
probably come down over time. But it is a self-contained kit 
that has got so much dye and everything in it that these tests 
can be run on the spot. If you were not in a hospital setting, 
you could actually conduct a rape exam, which is the point you 
want to get to. So further advancement in those type of 
screenings would be helpful.
    The problem with these drugs is that they are pretty much 
out of your system in about 12 hours, basically. We usually say 
that the maximum rape exam can be done at 72 hours for just 
about all other evidence, and make sure that you have preserved 
the best evidence that you can. But these--you know, you have 
an individual who is woken up after basically a semi-comatose 
situation the night before, and maybe she remembers getting to 
where she is and maybe she does not. And the way these drugs 
work, you are sort of in a black-out stage. Rape seems to be a 
sort of he-said, she-said sort of crime anyway, and so she 
cannot even completely tell law enforcement what it is that is 
going on.
    Mr. Barr. And that creates problems that, as Mr. Harman 
said, these high-priced lawyers can use as----
    Ms. Flowers. Exactly.
    Mr. Barr [continuing]. You know, to drive wedges in the 
testimony.
    Ms. Flowers. You are at the hospital now, and you are 
trying to tell them. And in Holly's case, she was unable to 
tell them what the symptoms are. So you know, that is where the 
education piece comes in, recognizing these symptoms, both in--
I mean, Holly had to beg girlfriends to come and pick her up 
and to even take her someplace. That the people around here 
were probably aware, as most people are with their friends, of 
how quickly they become intoxicated. They probably know that 
Holly had two drinks at a restaurant, that she was not going to 
be having seizures and falling down and not being able to 
communicate effectively.
    That is all about educating everybody around you, law 
enforcement. You know, if I stumble up some evening out of 
Buckhead on a Friday night after I have been in a club, 
somebody spiked my drink and I stumble off to a law enforcement 
officer, I am just going to look drunk, and he may just push me 
aside and say, you know what, you need to go find your friends, 
you need to find a ride home, ma'am, you need to, you know, get 
on out of here. Instead of maybe recognizing the signs that I 
have been drugged and I need help, before we end up in a 
situation like Holly.
    Mr. Barr. So a key component would be better educating law 
enforcement on the street, on the beat----
    Ms. Flowers. Yes.
    Mr. Barr [continuing]. To the danger signs of these date 
rape drugs?
    Ms. Flowers. Correct. But I think one of the other things 
that we have done is we have educated in isolation. So we have 
law enforcement being educated and prosecution over here, the 
advocates over here, and the medical community. What we support 
is the concept of all four of those components being needed to 
address this. And educating those people collectively, so that 
they work effectively as a team when something like this 
happens. So that law enforcement sees the young woman, who then 
transports to the medical facility who also recognizes the 
symptoms as the advocates come in to support and help.
    Mr. Barr. Thank you. Mr. Massell, you mentioned zero 
tolerance, and I think you mentioned New York's experience in 
recent years to sort of pull itself back from the brink of 
destruction, symbolic destruction, I suppose. We have seen 
these problems in the Atlanta area as well over the years, the 
problems with Underground Atlanta, a tremendous positive 
concept and it went downhill, for some of these very same 
reasons that we are talking about here. And it can take, at 
best, years to redevelop a community's reputation for safety 
and to draw those people back. Once you lose them, you have 
lost them, and you have to, you know, start all over again, and 
it can take a lot of time and be very devastating on a 
community, not only from the personal side, as Mr. Harman 
related, but from the business standpoint as well.
    Could you elaborate just a little more on perhaps some of 
the specific steps that we could look at with regard to the 
Buckhead community, for example, similar to what has happened 
up in New York?
    Mr. Massell. Well, first of all I would like to endorse and 
echo the description you just gave of what can happen in a 
community when it does not have enforcement, and lawlessness 
runs wild, because it not only affects the business of the 
nearby orderly establishments, like restaurants that might not 
be in the late-night arena, it also starts affecting the image 
of the community and this affects the businesses in retail, it 
affects even sales and rentals of condominiums and apartments 
and then single-family homes. And what happens is the property 
values go down and that decreases ad valorem taxation, income 
to the city. And the cost is dramatic. And left unchecked, it 
can make a tremendous difference and a very foolish frugality 
of not providing the amount of law enforcement that could 
offset this.
    As far as zero tolerance, in my opinion, you have to 
sometimes use a two-by-four to get a donkey's attention, and if 
necessary you arrest those that jay-walk and those that do not 
have their seatbelts on and those who throw cigarette butts out 
the window and any other violation of any existing ordinance. 
And then people get the clear picture that you are not going to 
tolerate lawlessness. And what happens, we found anyway in our 
community in the Buckhead nightlife area, that it is not so 
much the people in the clubs that are causing the problems.
    In fact, right now the club business is off a minimum of 20 
percent. But it is these hangers-on, and according to the law 
enforcement people, the criminal element, including drug 
vendors, use this as cover and come into the community, and 
they can operate without much fear of detection, going into the 
neighborhoods around with burglaries and car theft and other 
violations. So that what is needed is this enforcement image 
that tells people, this is not a comfortable place for the 
criminal to live or work or operate. And so they will leave 
this area.
    And that could have saved underground, it could have been 
done quick enough, in my opinion. And that is what is needed 
very quickly in the Buckhead Village area.
    Mr. Barr. Do you think that sort of approach would have a 
high likelihood of succeeding at the challenge that you laid 
out at the beginning of this hearing, and that is to stop this 
problem from becoming an epidemic before it does? Are we still 
in that window of opportunity where we can do that?
    Mr. Massell. Yes. Right now, we have a lot of misbehavior, 
which is disturbing to the quality of life, which is a very 
important factor to consider. But the crime rate is still 
relatively small, and the truth is that the drug usage has not 
reached what would be considered epidemic proportions in the 
Village. But it surely can if it is not curtailed. And that is 
why I am pleading for whatever help we can get in the Buckhead 
community from whatever source is available.
    Mr. Barr. Thank you.
    Mr. Chairman, if I could, I know that you have been very 
kind in extending the period of time for question and answer. 
If I could just ask one final question.
    Mr. Harman, as you indicated during the last few years 
since Holly's tragic death, you spent at least part of your 
time, probably a good deal of your time, traveling and speaking 
and helping to try and educate others in a way that will avoid 
them having to go through the same tragedy that you all did. 
But looking at the community in Carrollton, in Carroll County, 
where this tragedy occurred with Holly, have you noticed any 
changes? Are people more sensitive to these problems, our young 
people, our schools, our law enforcement, so that hopefully 
others, as you indicated, will learn from the tragedy that you 
all have had to deal with? Have you noticed some changes over 
the last 4 years?
    Mr. Harman. Somewhat. You know, individual cases, I have 
had people come up to me and say that this has changed their 
lives, and knowing about Holly and hearing about her, and how a 
lot of young people, they are more aware when they go anywhere 
just out in public, especially bars, this kind of thing, they 
are more aware of what they are doing, and their drinks, 
whatever, they are more aware of it from what has happened. 
They say they are.
    And we have urged, when I am going around talking, like 
Mayor Massell said about zero tolerancy, we have urged that in 
the community, in the high schools, this kind of thing. We have 
urged them to put that policy into effect in different schools 
and the local law enforcement in different areas we have spoke 
in. I think those things can have a big effect on it. And the 
things Ms. Flowers said, on the education part, really needs to 
be done a lot more of.
    Mr. Barr. Do you know, Ned, specifically whether some of 
the pre-existing programs, such as the D.A.R.E. program, the 
Drug Abuse Resistance Education program, are they talking about 
these types of drugs, the danger signs of which are very 
different from marijuana and cocaine, and so forth? Are they 
well educated as to the danger signs and helping to educate our 
young people to do some of the things we have talked about here 
today, that would increase the chances of preventing this sort 
of thing?
    Mr. Harman. Honestly, I do not know. I have not heard one 
of them speak. I know there is a lot of it in our community, to 
go around speaking like that, but I have never been in it 
before when they have been there. They do that on their own, I 
think, at different times.
    I might say, a lot of education needs to be out there on 
the drugs in the communities, but just to throw a different 
wrinkle at it, it is a lot more deeper, to me, in this country. 
Our local community, the State, the whole country is a moral 
decay out there, to me, that we are going to have to address 
sometime or other in our country, get some morals back into our 
people, the young people, parents or whatever it might be, 
where it needs to come from. But in the school system, 
churches, community action or whatever. But there is no regard 
for human life out there. And especially in Holly's case, these 
guys, you know, if they had just carried her to the hospital 
and rolled her out, they did not have to get involved with the 
drug people, if they just carried her when they saw her pass 
out or go into convulsions, if they had just carried her there 
and just rolled her out in front of the emergency room, I think 
Holly would still be here today.
    Mr. Barr. In that particular case, were there others 
besides the perpetrators themselves that knew this had 
happened?
    Mr. Harman. Well, there were other people there, from what 
I understand. Now you know, we will never know the truth of the 
whole thing, because Holly was unable to speak. From her 
girlfriend, where we get most of my information, that was there 
with her, she says that the people there, one of the boys 
there, would not let anybody call the police, call 9-1-1 or do 
anything like. Afraid they would get in trouble, I guess. And 
would not help her get into the car, and she was just by 
herself, nobody would help her. When she had to go across town 
to the roommate, at the college there, to get another roommate 
to come back and help to get Holly in the car.
    But you know, there is so much regard for animals, I make 
my living off my animals and crops, this kind of thing, is more 
regard for animals in this country, it seems like, than there 
are for human rights nowadays. And I am not saying we do not 
need to treat animals good, because I do treat animals good, 
because that is where I make my living from. But there is a lot 
of people out in this country that have more regard for 
animals' rights than they do for human rights. I just think we 
just got to somehow get a grip on this country about the 
morals, about regard for human life.
    I do not know, it seems like I think on the local level is 
where we have got to do most of our stuff. I am really strong 
on the local level thing, and maybe something can be used on 
the local level, too. But on the national level, too, or State 
level, whatever, looks like there could be something--I do not 
watch this MTV, something like that, but somewhere where, you 
know, I can talk, and you all can talk and a lot of grown-ups 
can talk to young people. But unless you can hit them where 
they are and pay attention, MTV, or whatever it might be. I 
could not stand to watch the stuff, myself. But that or some of 
the things that young people go to.
    If you can make them aware of it in that aspect of it, 
where they show some real-life stuff, something like what 
happened to Holly, with all the instruments hooked to her, in a 
coma, let them know this kind of stuff, dramatization of it, or 
let them know what happens to people. Whether it is slipped to 
you or whether you do it as a recreation thing, they need to be 
more aware of what can happen to you, the consequences of it 
somehow.
    Mr. Barr. Thank you. Thank you, Mr. Chairman.
    Mr. Mica. Thank you, Mr. Barr. And I would like to thank 
our three panelists this morning. I think you have described a 
new challenge that we face. While we have made some progress on 
curtailing homicides in this country, we have seen an increase 
in sexual assaults related to illegal narcotics use. Where we 
have made progress again in homicides, with the homicides now 
being exceeded by drug overdose and death through illegal 
narcotics, and so much of the crime in this country tied into 
illegal narcotics, we are hopeful that we can work with the 
local officials in a local-State, private-public partnership to 
try to bring resources, assistance and meaningful Federal 
programs that will be more effective in dealing with what 
Atlanta faces and other communities face.
    We thank each of you, particularly you, Mr. Harman, who 
gave such compelling testimony. I wish every young person and 
parent could have heard that today. It probably would make a 
great deal of difference and maybe a few will again take away 
from here some hope for the future, even though you have 
suffered a terrible personal loss. So we thank you in 
particular, and the other panelists. And I will excuse the 
witnesses at this time, and call our second panel.
    Our second panel this morning consists of four witnesses. 
The first one is Jason Saliba who is the Assistant District 
Attorney of Cobb County. He is joined on the panel by Paul 
Howard who is the District Attorney of Fulton County. We also 
have on this panel John Andrejko, and he is the Special Agent 
in Charge of the Drug Enforcement Agency. We have our final 
panelist, Robert Gattison, and Mr. Gattison is the Special 
Agent in Charge of the Atlanta office of the U.S. Customs 
Service. I would like to welcome the four panelists.
    As I indicated to our first panel, this subcommittee is a 
subcommittee of the Committee on Government Reform of the House 
of Representatives and an investigations and oversight panel of 
Congress. We do swear in our witnesses, which I will do in just 
a moment. Additionally, if you have any lengthy statements or 
documentation, we will run a clock, we have four panelists 
here. Try to limit your oral comments and presentation to the 
subcommittee to 5 minutes. That will allow us enough time for 
questions. But if you do have additional statements, 
documentation or information you would like submitted to the 
record, upon request through the Chair, that will be made part 
of the permanent record of this hearing.
    With those comments, I would like to now ask the witnesses 
if they would stand to be sworn. Raise your right hands.
    [Witnesses sworn.]
    Mr. Mica. The witnesses answered in the affirmative. We 
appreciate your coming forward this morning and providing us 
your testimony. Let me start, if I may, with the Assistant 
District Attorney of Cobb County, GA, Jason Saliba. Welcome 
sir, and you are recognized.

 STATEMENTS OF JASON SALIBA, ASSISTANT DISTRICT ATTORNEY, COBB 
COUNTY, GA; PAUL HOWARD, DISTRICT ATTORNEY, FULTON COUNTY, GA; 
   JOHN ANDREJKO, SPECIAL AGENT IN CHARGE, DRUG ENFORCEMENT 
 ADMINISTRATION; AND ROBERT GATTISON, SPECIAL AGENT IN CHARGE, 
                 ATLANTA, U.S. CUSTOMS SERVICE

    Mr. Saliba. Thank you, Mr. Chairman, and to the members of 
your staff, and of course, Representative Barr who invited us 
here. I would like to thank you for allowing law enforcement to 
be heard on this issue.
    Our jurisdiction for Cobb County, GA is one of the 
northernmost suburbs of the city of Atlanta. I am currently 
assigned to what is called the MCS Narcotics Unit. That is a 
task force of local agencies who provide manpower, as well as 
resources, under the direction of a command staff. We also have 
a good working relationship with the Drug Enforcement 
Administration, and in fact have an agent assigned to them as a 
task force agent.
    Over the last 5 to 6 years, we have seen a dramatic 
increase in certain of the drugs that are before this committee 
today. The first of those is methamphetamine. As the committee 
probably knows, for a long time, methamphetamine was controlled 
predominantly by biker organizations in this country and was 
brought in from Canada. Over the last few years we have seen a 
shift in that.
    That drug is now controlled predominantly, we believe, by 
Mexican organized crime units. Indications from our 
intelligence group within Cobb County, as well as what is 
shared between the agencies in the city of Atlanta is that 
those groups are bringing that in from out of the country. We 
have had recently in the suburban part of Atlanta several labs 
in various counties, which were found by law enforcement and 
seized and destroyed.
    However, the amount of methamphetamine that we are seeing 
is not consistent with the laboratories being found here. We 
have gone from ounce quantities to pound-type quantities that 
our agents are dealing with. And it is not only Cobb County, it 
is the surrounding counties around us, because all of our task 
forces work together and trade information.
    With the fall of cocaine in its social status, not the 
amount of use but its social status not being what it once was, 
people in this area have turned to methamphetamine. It is a 
drug which produces a similar type high or reaction, however it 
is much longer lasting, and the prices are similar and 
comparable. The organizations who are importing this into our 
area are exceedingly organized.
    The other drug that we are seeing a massive increase in is 
MDMA, or what is known as Ecstasy. As the previous panel 
testified, it is a large drug among the youth and young adults 
of our community. It exists not only in the Buckhead area and 
in the high night life areas where there is a large 
concentration, but it exists, we are finding in most 
neighborhood bars and restaurants and things of that nature, 
all through the suburbs in Atlanta.
    College students, teenagers, they do not understand that 
this is the same type of effect and the same type of danger as 
heroin and cocaine, the things that have been much more 
publicized and directed at the youth over the years. It comes 
in through, we believe, the northeastern and northern United 
States. It is manufactured out of this country predominantly.
    This year alone, we have seized 34 percent more dosage 
units of MDMA than in the last 5 years combined, 140 percent 
higher seizure rate than in the highest year we had, which was 
back in the mid-1990's. The date-rape drugs, as far as Rohypnol 
and GHB present their own problems to our local law 
enforcement, particularly GHB. Local law enforcement prides 
itself on working from both ends of the spectrum.
    We have undercover agents of course who try to infiltrate 
drug organizations and stop that type of activity. But our 
standard police officers, those of every agency in and around 
the city of Atlanta are trained if they stop an automobile and 
they smell burned marijuana or they see scales, they see 
residue in bags, things of that nature, that they are to report 
that. And they bring in the drug agents and an investigation 
commences.
    However with GHB, that is a much harder task. If you walk 
into someone's house, they have several bottles of water, like 
those sitting before the panel, any one of those could contain 
GHB and law enforcement would never know. And they obviously do 
not have the resources to test every single substance that is 
clear in liquid found in every single home. I do not believe we 
have any accurate statistics, there is a lot of anecdotal 
evidence that GHB is very prevalent in the Atlanta area. 
Seizures have remained somewhat steady, however the seizures we 
have made have been of large quantities, not the single-dosage 
units.
    We are here to ask today, to talk of course, and answer 
questions, but also ask for the cooperation of the local 
agencies, as well as the Federal agencies. I do not think that 
we can do this alone, I do not think the Federal agencies can 
do it alone. We have a longstanding commitment in Cobb County 
to working with the other agencies that are represented here, 
and they have been very good to us over the years. We would 
like thank them for that and ask for that continued support.
    Mr. Mica. Thank you for your testimony. And I would like 
now to recognize Paul Howard, who is the District Attorney of 
Fulton County. You are welcomed and recognized at this time.
    [The prepared statement of Mr. Saliba follows:]

    [GRAPHIC] [TIFF OMITTED] T4706.012
    
    [GRAPHIC] [TIFF OMITTED] T4706.013
    
    [GRAPHIC] [TIFF OMITTED] T4706.014
    
    [GRAPHIC] [TIFF OMITTED] T4706.015
    
    [GRAPHIC] [TIFF OMITTED] T4706.016
    
    [GRAPHIC] [TIFF OMITTED] T4706.017
    
    [GRAPHIC] [TIFF OMITTED] T4706.018
    
    [GRAPHIC] [TIFF OMITTED] T4706.019
    
    [GRAPHIC] [TIFF OMITTED] T4706.020
    
    [GRAPHIC] [TIFF OMITTED] T4706.021
    
    [GRAPHIC] [TIFF OMITTED] T4706.022
    
    Mr. Howard. Good morning. Again, I would like thank the 
Congress for being here and examining what I believe is a very 
important issue. I would like to restrict my comments to the 
date rape drugs. And I have prepared some comments that I 
submitted, and I would like to----
    Mr. Mica. Without objection, your entire statement will be 
made part of the record. Please proceed.
    Mr. Howard. On January 28th, a Fulton County Jury convicted 
two defendants for rape and aggravated sodomy upon a local 
college student. The conviction was unique in that it 
represented the first sexual assault involving the use of a so-
called date-rape drug to be prosecuted in the State of Georgia. 
The facts and circumstances of the case were all too familiar.
    On March 31, 1998, the defendants made the acquaintance of 
the victim and one of her female friends while the defendants 
visited the young lady's dormitory room at Georgia State 
University, which is one of our local colleges. The defendants 
brought that night a baby food jar containing Gamma 
HydroxyButyrate [GHB], G, or liquid X, which they had purchased 
somewhere near the campus.
    At the urging of the defendants, the victim and her friend 
ingested a small amount of the drug thinking that it would 
produce a mild high, but instead, both of the women lost 
consciousness; their breathing was slowed to a dangerous pace. 
And while one of the women lay unconscious in the bathroom, the 
other woman was sexually assaulted by both men. Had another 
student not stopped by just by chance and called 9-1-1, none of 
this would have ever been brought to the public's attention. 
Even worse, more serious physical harm would have resulted to 
these two young ladies.
    The jury convicted the defendants in this case in less than 
90 minutes. The trial judge, along with the defense, had 
successfully suggested during the trial that the victim was as 
much to blame for what happened as the defendants, and the 
defendants in this case were granted a retrial. And at the 
retrial, some of the evidence that was excluded during the 
first trial, under our State's rape shield law, was admitted 
and these defendants were acquitted.
    Even though we had eye witness testimony and the victim's 
brave determination to undergo the pain of a second trial, it 
did not outweigh the misunderstanding and confusion surrounding 
these date-rape drugs, and the ways which they affect sexual 
assault cases.
    Recognizing this after first trial, my office sponsored a 
short educational seminar on the dangers of date rape drugs. In 
addition to the staff members from my office, speakers included 
members of the Grady Rape Crisis Center, the Georgia Poison 
Center and the Georgia Network to End Sexual Assault. Mr. Ned 
Harman, whom you heard from before, was also on hand to bring 
the real dangers of these substances to the public. Deans of 
students and panhellenic councils, student leaders from over a 
dozen area colleges and universities, as well as 
representatives from the county and city boards of education 
were invited to attend and the response was overwhelming.
    And Congressmen, I would like for you all to know that the 
most common question that they asked was, what can our young 
people do to protect themselves, and what should we know about 
these drugs? And I believe that these concerns are well 
founded, because these drugs are easily slipped into beverages, 
alcoholic or otherwise, rendering the victim sedated, confused 
and, at worst, unconscious or comatose.
    These drugs are a sexual predator's dream come true. And 
once an assault has taken place, the amnesia which commonly 
accompanies these other symptoms leaves the victim uncertain of 
what has actually taken place, and unable to fully assist law 
enforcement in the prosecution of those responsible. Hence, 
most sexual experts in law enforcement agencies in this area 
feel certain that incidents such as this involving date rape 
drugs are seriously under-reported. Even if a woman has reason 
to believe that she has been the victim of a sexual attack 
while under the influence of one of these substances, the 
feelings of guilt or shame at having willingly ingested the 
drug may prevent her from seeking help, the help she needs, or 
may lead her to believe that she cannot seek the justice she 
deserves. And the threat posed by these drugs we believe is 
also growing.
    In the last year, the city of Atlanta Police Department has 
encountered over 200 cases involving club drugs, a designation 
that includes not only GHB but Rohypnol, Ketamine and Ecstasy. 
And in 1999 alone, the Georgia Poison Center received 26 
Ketamine-related calls, 37 Rohypnol-related calls, and an 
astounding 265 GHB-related calls. And 15 of the calls related 
to Rohypnol, and 20 of the GHB calls specifically indicated 
that the exposure to the drug was malicious in nature. Many of 
these calls also report that alcohol was used concurrently with 
the drug.
    I see that my time is up. I have some other statistics 
regarding what we believe is a growing danger, and I also have 
three areas of suggestions that I think that the Congress might 
examine in trying to eliminate this threat.
    Mr. Mica. Thank you. We will get back to you on your 
recommendations. I would like to recognize now John Andrejko, 
who is the Special Agent in Charge of our Drug Enforcement 
activities here. Thank you and you are recognized.
    [The prepared statement of Mr. Howard follows:]

    [GRAPHIC] [TIFF OMITTED] T4706.023
    
    [GRAPHIC] [TIFF OMITTED] T4706.024
    
    [GRAPHIC] [TIFF OMITTED] T4706.025
    
    Mr. Andrejko. Good morning, Chairman Mica, and 
distinguished members of the committee. I am pleased to have 
the opportunity to appear before you today to discuss the 
emerging drug threats facing the youth of America. I would 
first like to thank you personally, and the committee for its 
continued support of the Drug Enforcement Administration, and 
overall support of drug law enforcement. I do request that 
written testimony be accepted into the record.
    Mr. Mica. Without objection, your entire statement will be 
made part of the record. Please proceed.
    Mr. Andrejko. Thank you.
    As you are well aware, the alarming spread of illegal drug 
abuse by our youth is having a profound effect in communities 
throughout the United States. It is fair to state that the 
increasing use of synthetic or club drugs, such as MDMA, also 
known as Ecstasy, GHB, Ketamine, LSD and methamphetamine by 
young adults is quickly becoming one of the most significant 
law enforcement and social issues facing our Nation today. 
Perhaps most frightening is the decreased perception of risk 
that young teens have regarding the use of these drugs.
    Although all club drugs pose significant threats to our 
youth, today I will focus upon the dangers of methamphetamine 
and MDMA or Ecstasy. While methamphetamines are not an entirely 
new problem in the United States, about 6 years ago an upsurge 
of methamphetamine trafficking and abuse began taking hold in 
many regions of the Nation, starting on the West Coast and 
rapidly expanding throughout the United States.
    DEA statistics indicate that in 1993, DEA seized a total 
218 methamphetamine labs nationwide. Current DEA statistics 
indicate that in 1999, DEA alone seized 2021 clandestine 
laboratories and that the total number of laboratories seized 
by Federal, State and local law enforcement offices nationwide 
was 7,060. Methamphetamine clandestine laboratory seizures 
within DEA's Atlanta field division also have greatly 
increased. Five years ago, DEA seized less than five 
methamphetamine laboratories, just in the northern district of 
Georgia. In fiscal year 1999, a total of 34 laboratories were 
seized, and to date in the northern district of Georgia, a 
total of 44 laboratories have been seized in fiscal year 2000.
    The majority of methamphetamine available for consumption 
in the southeast area, and especially in Georgia, originates in 
Mexico, California and Texas, and is transported via couriers 
by vehicles, commercial tractor-trailers and commercial postal 
services. In the last few years, a substantial amount of 
investigations initiated by the DEA Atlanta field division 
involved methamphetamine distribution and increasingly more 
methamphetamine violators have been arrested. The figures for 
those arrested have increased from 307 in fiscal year 1997 to 
521 in fiscal year 2000. In 1996, the DEA Atlanta field 
division seized a total of 54 pounds of methamphetamine. For 
the last 3 fiscal years, methamphetamine seizures have 
continued to trend upward. For the last fiscal year, fiscal 
year 1999, DEA Atlanta seized 469 pounds of methamphetamine. 
Seizures for fiscal year 2000 are not final, but show a slight 
decrease.
    As many of us know, the violence associated with 
methamphetamine trafficking and use has also produced a 
collateral impact on the crime statistics of communities across 
the United States. Methamphetamine-related violence usually 
results from the user under the influence of the drug. Over the 
course of the last 2 years, the national methamphetamine 
situation has changed significantly. Until 1999, the 
methamphetamine problem was increasing at a dramatic rate.
    The national purity level for methamphetamine, as well as 
amphetamine, has gone down dramatically in 1999 to 2000. 
Precursor chemical controls, international letter of non-
objection program and chemical interdiction, combined with 
aggressive national and local law enforcement efforts has 
produced positive results.
    We are cautiously optimistic. However the recent explosion 
of Ecstasy seizures and related emergency room episodes are of 
great concern. Recent statistics indicate that between 1998 and 
1999, use of Ecstasy rose by a third among 10th graders and by 
56 percent among 12th graders.
    Mr. Chairman, while Ecstasy abuse currently is not as 
widespread as that of many other drugs, it nonetheless 
increased at an alarming rate; 800 percent over a 4-year 
period. Traditionally, the Ecstasy drug market in the United 
States has been supplied and controlled by western European-
based traffickers. In recent years, Israeli organized crime 
syndicates, some composed of Russian emigres associated with 
Russian organized crime syndicates have forged relationships 
with the western European traffickers.
    What unites these drug trafficking organizations is the 
enormous profit realized, along with the fact that MDMA is 
typically not produced in the United States. Although estimates 
vary, the cost of producing an MDMA tablet can run between 50 
cents to $1. By the time the pill reaches U.S. soil, it can be 
sold for $25 to $40 per pill. Thus a $10,000 investment can 
realize a potential profit of almost $360,000.
    Presently, DEA has several ongoing investigations into 
these drug trafficking organizations. DEA's Special Operations 
Division conducted one such investigation. This investigation, 
entitled Operation Rave, focused on an MDMA distribution cell 
that operated throughout the northeast and Florida. The leader 
of this organization, an Israeli national, was responsible for 
the distribution of approximately 150,000 tablets of MDMA per 
week.
    This and related spin-off investigations resulted in the 
arrest of 105 defendants, the seizures of 620,000 tablets of 
MDMA and approximately $935,000 in U.S. currency. The 
significance of this investigation was the fact that it 
identified for the first time, the involvement of Israeli and 
Russian crime groups in MDMA trafficking. The MDMA situation in 
Georgia mirrors national trends. MDMA is very popular among 
middle-class college-age students who mistakenly perceive this 
designer drug to be harmless. In the Atlanta metropolitan area, 
like in many other metropolitan cities throughout the United 
States, MDMA is widely available in the night club scene, at 
rave parties, college campuses and health fitness centers.
    Even though a few MDMA laboratories have been seized in the 
Atlanta field division, the bulk of MDMA pills available in the 
Atlanta metropolitan area are manufactured in the Netherlands, 
transported overland to other European cities, and transshipped 
into this area via Canada and Mexico. The trafficking of MDMA 
in the Atlanta area appears to be controlled by local drug 
traffickers with connections to Russian and Israeli organized 
crime members.
    Within the last few months, two major seizures of MDMA have 
been made in the Atlanta metropolitan area. One totaled 70,000 
pills and the other 30,000 pills. In addition, approximately 
27,000 kilograms of MDMA was destined for distribution in the 
Atlanta area and was seized by DEA.
    These drug trafficking organizations control their 
operations through sophisticated networks of production, 
distribution, money laundering and security cells. Prosecuting 
these drug king pins who command and control the organizations 
requires law enforcement to find some way to get inside their 
sophisticated structures to obtain evidence of their crimes. 
Often the only feasible means of infiltrating these structures 
is through the use of electronic surveillance. To effectively 
deploy these methods and to stay one step ahead of the 
traffickers, law enforcement must be able to move on available 
information as expeditiously as possible.
    In conclusion, legislation such as House Bill H.R. 297, the 
Methamphetamine Proliferation Act of 1999 and companion Senate 
Bill S. 486 which calls for the Sentencing Commission to amend 
guidelines, to increase penalties associated with manufacturing 
and trafficking of Ecstasy and an assessment of the abuse of 
and trafficking in GHB will be tremendous asset to law 
enforcement.
    Again, I applaud the chairman for his unwavering dedication 
and support to this serious issue. I thank you for providing me 
the opportunity to address the committee, and I look forward to 
taking any questions you may have on this important issue.
    Mr. Mica. Thank you. And we will withhold questions until 
we have heard from our final witness, which is Robert Gattison. 
And he is Special Agent in Charge of the Atlanta Office of U.S. 
Customs. Welcome, sir, and you are recognized.
    [The prepared statement of Mr. Andrejko follows:]

    [GRAPHIC] [TIFF OMITTED] T4706.026
    
    [GRAPHIC] [TIFF OMITTED] T4706.027
    
    [GRAPHIC] [TIFF OMITTED] T4706.028
    
    [GRAPHIC] [TIFF OMITTED] T4706.029
    
    [GRAPHIC] [TIFF OMITTED] T4706.030
    
    [GRAPHIC] [TIFF OMITTED] T4706.031
    
    [GRAPHIC] [TIFF OMITTED] T4706.032
    
    [GRAPHIC] [TIFF OMITTED] T4706.033
    
    [GRAPHIC] [TIFF OMITTED] T4706.034
    
    [GRAPHIC] [TIFF OMITTED] T4706.035
    
    [GRAPHIC] [TIFF OMITTED] T4706.036
    
    [GRAPHIC] [TIFF OMITTED] T4706.037
    
    [GRAPHIC] [TIFF OMITTED] T4706.038
    
    Mr. Gattison. I would like to thank the committee for this 
opportunity to testify here today regarding the law enforcement 
activities of the U.S. Customs Service as they relate to the 
smuggling of methamphetamine and date rape or club drugs.
    As America's front line, the Customs Service is uniquely 
positioned at the borders to identify, intercept and 
investigate the importation of large quantities of dangerous 
drugs which are smuggled into the United States through our 
ports of entry. We often act as the early warning system in 
identifying new drug trends or methods of operation employed by 
violators who attempt to smuggle drugs into the United States. 
The Customs Service has experienced a dramatic increase in our 
seizures, investigations and related arrests that focus on date 
rape or club drugs of all kinds. But specifically the synthetic 
drug commonly known as Ecstasy.
    The abuse of Ecstasy has spread throughout the United 
States at an unprecedented level and can be primarily 
attributed to two key factors. Its enormous profit and 
marketing techniques used by criminal organizations who 
manufacture, smuggle and distribute it. From a smuggler's 
standpoint, Ecstasy is one of the most lucrative drugs in the 
world. Tablets cost just pennies apiece to produce in Europe. 
They can be sold on the streets of America for as much as $40 a 
tablet. For an initial investment of just $100,000, an Ecstasy 
smuggler can reap nearly $5 million in profit. The 9 million 
tablets that U.S. Customs has seized thus far in fiscal year 
2000 are worth, at $30 per pill, approximately $270 million.
    The profitability to import Ecstasy is enhanced because of 
its insidious marketing techniques that smugglers and 
distributors employ to lure teens into using these drugs. In 
our status conscious society, tablets are designed with brand 
names and logos, such as the Mitsubishi logo, the Rolex symbol, 
the Adidas emblem, the Nike trademark, just to name a few.
    To distinguish one's competitor's product from another, the 
logos are specifically selected to appeal to the young and 
affluent Ecstasy users. Nicknames for the club drugs, such as 
Ecstasy for MDMA, Grievous Bodily Harm for GHB, Special-K for 
Ketamine, and roofies for Rohypnol have an allure which make 
them attractive to young adults. These seemingly benign 
trademarks and enticing nicknames make it difficult for the 
user to associate the actual danger that the use of this hard 
drug can cause.
    During fiscal 1999, U.S. Customs seized 3 million tablets 
of Ecstasy, more than seven times the 400,000 tablets that we 
seized in 1997. This upward surge continues in fiscal year 
2000. We have already seized approximately 9 million tablets 
during the first 8 months of this year. This represents 
approximately a 22 percent increase from 1997.
    Furthermore, during fiscal year to date, we have arrested 
over 280 individuals involved in Ecstasy smuggling relating to 
seizures at our ports of entry. In addition to Ecstasy, in 
fiscal year 2000, Customs has seized over 800 pounds of 
methamphetamine. This represents more than an 800 percent 
increase over fiscal year 1999.
    The vast majority of Ecstasy is produced in the 
Netherlands. The Netherlands is to Ecstasy as Colombia is to 
cocaine. Smugglers export primarily from Amsterdam or across 
the uncontrolled borders to neighboring European Union states, 
other international hubs, such as Brussels, Frankfurt, 
Dusseldorf, Paris or London. In the Caribbean, the Dominican 
Republic has recently become a staging area for Ecstasy 
destined for the United States from the Netherlands. 
Investigations and seizures activity by the Customs Service has 
identified three primary gateway areas where Ecstasy is 
smuggled into the United States. These are New York, California 
and Florida.
    There is no coincidence that these areas have emerged as 
focal points for Ecstasy smuggling. They are all transportation 
centers with strong European ties. They all have large 
concentration of young adults that are the primary target of 
consumers of Ecstasy, and they are headquarters for criminal 
organizations that smuggle Ecstasy. These groups use couriers 
from all walks of life to thwart Customs. We have arrested 
teenagers, bankruptcy attorneys and members of the clergy who 
have attempted to evade Customs inspection. Couriers have 
concealed Ecstasy in luggage, body cavities, and have even 
ingested tablets wrapped in condoms.
    There has been a dramatic rise in passenger air traffic 
through Atlanta Hartsfield International Airport over the past 
few years, placing Atlanta No. 1 in the world for passenger 
traffic. With this overall increase in the total number of air 
travelers transiting into and through Hartsfield International 
Airport, Atlanta has been an equally dramatic rise in the 
number of international passengers arriving into Atlanta from 
abroad.
    Let me present some statistics that should illustrate just 
how real the threat of Ecstasy smuggling in the United States 
through Atlanta has become. In fiscal 1997, there were no 
recorded Ecstasy seizures made by inspectors at Atlanta's 
Hartsfield International Airport. In fiscal 1998, inspectors 
made four separate seizures of Ecstasy totaling approximately 
33,600 individual tablets.
    Fiscal 1999 and fiscal 2000 seizures statistics really 
illustrate just how popular this drug has become here in the 
United States. Inspectors made three seizures, Ecstasy 
seizures, in fiscal 1999 resulting in five arrests and the 
confiscation of over 85,800 tablets of Ecstasy. Although the 
total weight of Ecstasy seizures slightly decreased in fiscal 
2000, the number of separate seizures and arrests for smuggling 
Ecstasy more than doubled. In fiscal year 2000 thus far, the 
Customs Service in Atlanta is responsible for seven separate 
Ecstasy seizures resulting in the arrest of nine individuals 
and the confiscation of approximately 57,420 tablets, valued at 
over $1.1 million.
    I brought several exhibits with me today to illustrate the 
concealment methods used to smuggle Ecstasy into the United 
States. Several of these exhibits were seized right here at 
Atlanta's Hartsfield International Airport. If I could pause 
for just 1 second, that is the Mitsubishi symbol there. All of 
these seizures took place at Atlanta's Hartsfield International 
Airport.
    The second chart shows the concealment methods. The bottom 
left-hand corner being the use of the new x-ray machine that 
Customs now utilizes at some of the airports, and we do have 
one here at Atlanta's Hartsfield International Airport.
    Mr. Barr. What are we seeing there, in that one?
    Mr. Gattison. That is not an internal, sir.
    Mr. Barr. It is taped to their body?
    Mr. Gattison. It is taped to their body. Yes, sir.
    Until recently, commercial air passengers presented the 
highest risk for Ecstasy smuggling. However, in a recent series 
of large seizures at the express mail hubs in Memphis, as well 
as a large number of smaller seizures at the express 
consignments and international mail facilities suggest that 
these may be the current method of choice for smuggling 
organizations.
    Our seizures of Ecstasy and the followup investigations 
have identified numerous criminal drug smuggling organizations 
that are heavily involved in this highly profitable activity. 
Investigations have disclosed that the Israeli organized crime 
is heavily involved. And in addition to Israeli organized 
crime, there is intelligence that Mexican and Colombian 
traffickers are getting involved. The involvement of organized 
smuggling organizations require us to use the most 
sophisticated and often effective tools available to monitor 
the activities of these syndicates. This often includes wire 
taps, cell phone locators and dialed number reporters, so forth 
an so on. These tools are critically important in our effort to 
combat Ecstasy smuggling.
    In order to coordinate and focus on investigations and 
enhance the flow of intelligence to our inspectors on the front 
lines, we have created an Ecstasy task force at Customs 
Headquarters in Washington. The task force is comprised of 
Customs inspectors, special agents, intelligence analysts that 
work full time on Ecstasy investigations. The mission of the 
task force to manage the national and international 
investigative activities of multi-jurisdictional cases, 
maximize the level of case exploitation and support and enhance 
day-to-day inspectional operations relative to Ecstasy 
smuggling.
    We routinely coordinate with DEA and our foreign law 
enforcement counterparts. In addition, intelligence and seizure 
information on drug smuggling is exchanged on a weekly basis 
via INTERPOL. In an effort to better deal with this emerging 
threat, Commissioner Kelly has also created a Web site to get 
the awareness message out to the public.
    Ecstasy has emerged as a very popular drug of abuse 
threatening our Nation's youth. Non-traditional organized crime 
primarily controls the Ecstasy manufacturing process in the 
Netherlands region and the smuggling of this drug into and 
across our Nation's borders.
    I would like to thank the committee for the opportunity to 
testify here today and for your continuing support to our 
important mission. I am confident that working together, the 
people sitting at this table can have an impact against Ecstasy 
smuggling. Thank you.
    [The prepared statement of Mr. Gattison follows:]

    [GRAPHIC] [TIFF OMITTED] T4706.039
    
    [GRAPHIC] [TIFF OMITTED] T4706.040
    
    [GRAPHIC] [TIFF OMITTED] T4706.041
    
    [GRAPHIC] [TIFF OMITTED] T4706.042
    
    [GRAPHIC] [TIFF OMITTED] T4706.043
    
    [GRAPHIC] [TIFF OMITTED] T4706.044
    
    [GRAPHIC] [TIFF OMITTED] T4706.045
    
    [GRAPHIC] [TIFF OMITTED] T4706.046
    
    Mr. Mica. Thank you, Mr. Gattison.
    Let me first call Mr. Paul Howard who is the District 
Attorney for Fulton County. You had several recommendations you 
wanted to make to the subcommittee. I would like to recognize 
you at this time.
    Mr. Howard. There are four things that I think the 
committee ought to consider. First of all, I think that there 
should be some definitive report which covers this area of 
unreporting, as it relates specifically to date rape drugs. The 
normal figure that we look at, as prosecutors, with sexual 
assaults, is probably about one-third of the victims who failed 
to report. Many of the experts believe that what we are talking 
about is probably as many as 80 percent of the victims of date 
rape drugs who do not report the findings, or do not report the 
criminal offense.
    I mentioned that we held a short seminar with college 
leaders. And one of the things that they reported is that they 
saw an increase in the number of young people that committed 
suicide, who were depressed, who for some sudden reason became 
academically uninvolved, and many of them thought that it had 
directly to do with the use of date rape drugs.
    So I think that there really needs to be more work done to 
find out exactly how many people are not reporting it, and also 
to bring to the public's attention the great harm that is 
caused by the use of the drugs, as we have heard from Mr. 
Harman.
    My second recommendation is that we would really step up 
the elimination of some of the sources of these drugs. And 
through the Customs agency and through the DEA, I think that 
there ought to be special divisions or units which concentrate 
on just these date rape drugs. I think we ought to eliminate 
any representation vested in this country that these date rape 
drugs are somehow legitimate, either as used by veterinarians 
or use for body builders. I now believe, and I am not sure 
about this, but as of 1999 as I understand it, GHB was not even 
on the Federal controlled drug list. And I think that, if it is 
not, then it should be. As Rohypnol, it should be a banned drug 
by Federal law. It is banned, I believe, in about 21 States, 
and it should be done also under the Federal Controlled 
Substances Act.
    The third thing that I am recommending is that there ought 
to be a great increase in the funding for education. I believe 
that every State ought to have some protocol that specifically 
deals with date rape drugs and how they ought to be handled, 
not only by the medical authorities, but by the law enforcement 
authorities, and the hospitals as well. I think that we have 
got to increase the general knowledge to the public, 
particularly as it involves young people, and as it involves 
young people who use and participate in night club and bar 
activities. I think what we have got to do now is increase the 
information among the judiciary, among prosecutors and among 
law enforcement.
    The last thing, in terms of the funding for education, I 
think that we also ought to look at providing some kind of 
treatment or counseling for victims, victims like Mr. Harman's 
daughter who spent several years in a comatose state. I think 
that there ought to be special kinds of treatment and 
counseling for those folks.
    Now the last thing, and the question was asked regarding 
whether or not we need an increased penalty or Federal penalty 
for the defendants in date rape cases. Well, I believe that, 
probably as a prosecutor, our main problem involves proof, and 
it involves the use of consent, when our victims in many cases 
do not remember exactly what has happened. And I think the 
Congress and the Federal Government might be very important and 
influential in working with local authorities to shape State 
laws to make sure that they recognize this special 
circumstance. Because if you do not recognize this special 
circumstance of a victim who does not remember what has 
happened, then it is possible to eliminate the possibility that 
the defendant would ever be prosecuted.
    Now I think there was some discussion about mandatory 
sentences. I think that we ought to retain mandatory sentences 
for these crimes. Now one of the things, and one of the 
realities is, as many of the speakers have pointed out, this is 
a middle-class drug in many respects. And I think that if some 
of the laws on the books right now were enforced, I think we 
might see some difference. And I as a prosecutor would like to 
not see the focus on the dangers of these drugs lessened by 
removing them from some structured sentence or mandatory 
category.
    Thank you.
    Mr. Mica. Thank you for those comments.
    I wanted to go back to a question of source of what we are 
seeing come into this area and the United States, and you 
testified, Mr. Saliba, that the source of meth is predominantly 
Mexican organized crime, is that correct, still, or are you 
seeing local lab as the production source?
    Mr. Saliba. We are seeing both, and I speak predominantly 
for the areas of the northern suburbs. My counterparts in the 
other counties, along with myself, have had discussions about 
this. But I do not think that the local labs that we have 
found, what is not--obviously we do not know how extensive that 
is. DEA has done a good job of finding those, we do not know 
how many more are out there. They are very active in that area. 
However the amounts of methamphetamine that we are seeing, even 
at lower quality, are not consistent with the small-type labs 
that are being found right now in the jurisdictions that we 
serve. Now whether those are coming in from the super labs out 
in the western United States, or straight in from Mexico, we do 
not know. Our sources indicate that most of what is 
distributed, and our arrest statistics are being distributed by 
Mexican organized crime, when it gets up into the large 
amounts.
    Now once it gets into our counties, it is being distributed 
out through the normal drug trafficking networks, it is cut 
down, percentages are cut down, it is distributed among dealers 
put on the street. But our larger arrests have all been of 
folks predominantly previously criminally deported aliens, 
predominantly folks that we know have organized crime ties 
within those organizations. And that appears to us to be the 
source of the methamphetamine that we are seeing.
    Now as I said, the actual place of manufacture, we do not 
know. We only know who is distributing it.
    Mr. Mica. Since this is coming across the borders, a great 
deal of it, across State borders at least we know, do you feel 
we have adequate Federal resources, is there adequate 
cooperative efforts, or is there some deficit that Congress is 
not addressing as far as providing resources, funding, laws, to 
deal with the problem that you have at hand?
    Mr. Saliba. I think there is a twofold problem. As I said, 
in the area of Atlanta, we have excellent cooperation, with 
Customs, Drug Enforcement Administration, with every Federal 
law enforcement agency. Our task force has been up and running 
since 1980, and since approximately that time, we have had an 
agent assigned to one of the task force groups at the Drug 
Enforcement Administration.
    I do not think, personally, that there are adequate 
resources for any law enforcement agency, be it State or 
Federal, to handle what is going on. The amount of profit that 
can be made off methamphetamine and the other synthetic drugs 
is enormous. They can afford lots of things that we cannot. 
They can afford to lose a lot of their product to law 
enforcement and a lot of it still makes it to the street. I 
think every agency is doing what they can, but I think funding, 
particularly for the Federal agencies, as well as through the 
States to their agencies, would be of enormous assistance.
    I think the other place where there should be a lot of 
help, and I will echo the sentiments of Mr. Howard here, there 
are a lot of places wherein we take jurisdiction over cases 
that are made jointly with Federal agents because we have 
stricter sentencing. There are a lot of areas, predominantly 
MDMA, where the Federal guidelines have stricter sentencing.
    I think there should be conformity brought between the 
Federal Government, and I think the Federal Government should 
talk to the State governments. You should not be allowed, 
depending on who arrests you, or depending on which agency 
infiltrates your organization, to have a lesser penalty and to 
take your chances that way. I think the disparity, and I think 
the criminals know the disparity, they know who is 
investigating them and they know what kind of jail time they 
are actually doing.
    The last thing I think that my boss, Pat Head, has done 
that I think is extremely important is, we no longer, in Cobb 
County, do sentences of illegal aliens involved in drugs that 
are suspendable upon deportation. We insist that they serve 
their sentence in State custody before they are remanded to the 
custody of the Immigration Service to be removed from this 
country. I think for a long time, State agencies, as well as 
Federal agencies, have asked that these people, for reasons of 
economy of scale, be removed from the country. But they come 
right back. They know they are going to do a year or two in 
jail, and that is the cost of doing business.
    With State guidelines being what they are in trafficking, 
they are now doing a minimum in Georgia of 10 years in jail, 
without possibility of parole. And I think that, in and of 
itself, might put some of these folks out of business, or at 
least take a generation of drug dealers at a time off the 
street, as we try to adapt to the problem.
    I think also education is very important, and I think we 
are educating our children way too late. I think when you talk 
about targeting ad campaign at high school students, I think 
that is too late. They may be the ones using the drugs, but 
they know when they are in middle school what the upper-class 
students are doing. They know what is socially acceptable. They 
know what will be accepted and what will not. And I think we 
need to, just as we have with all the other drugs in this 
country, we should target those ad campaigns at elementary and 
middle school children.
    Mr. Mica. Thank you.
    Let me move to Mr. Gattison, with the U.S. Customs Service. 
We know that with Ecstasy, we are getting an incredible volume 
coming out of the Netherlands. Can you share with the 
subcommittee the status of reopening the Customs Office in the 
Netherlands? Are you aware of what is going on there?
    Mr. Gattison. Well, I am aware that the office was closed a 
few years ago. I know we are looking into opening new offices 
around the world.
    Mr. Mica. Can you provide us with specific information, 
including the Director's intention of reopening the Netherlands 
operation, and to what degree, and what he needs to get that 
done?
    Mr. Gattison. I have no information specifically.
    Mr. Mica. Can you provide that to this subcommittee?
    Mr. Gattison. Yes, I can.
    Mr. Mica. We think it is very important. We visited during 
the recess with the Dutch officials, and we have a big gap 
there. And it is a huge transportation hub. They have also been 
handicapped by having previously passed some liberalized 
narcotics legislation, which they have now altered, but they 
are suffering some of the consequences from it. And it is 
certain from your testimony that continues to be the major 
production source of Ecstasy coming into the United States. 
That is what you testified, is it not?
    Mr. Gattison. That is correct.
    Mr. Mica. And you are seeing that stuff come in through 
Hartsfield, and across the State lines here?
    Mr. Gattison. Southwest border of the United States, up 
into the Atlanta area. There has been one particular 
investigation that we can tie back to the Mexican border.
    Mr. Mica. What about suggestions of having some more 
concentrated effort to deal with Ecstasy or certain drugs that 
we see in surges? Of course, meth, and we have the problem of 
precursor chemicals and other things coming in for meth 
production here, but also meth coming across the border, 
Mexican organized crime involved in this. Is it wise for 
Customs to have a targeted effort for these new waves of large 
quantity illegal narcotics, or continue sort of with the plan 
that you now have?
    Mr. Gattison. Yes, it is. But we do that internally. When 
we identify a trend or something to that effect, we locally 
reorganize the office and put agents or assign agents full time 
to work in that specific area. So yes, it is wise. But we do it 
internally within the agency.
    But also the task force in Washington is there to 
coordinate and focus us on investigations nationwide and 
international.
    Mr. Mica. We still remain concerned. We know that 80, 90 
percent of the Ecstasy is coming out of the Netherlands. You 
have identified Dutch and Israeli and other large operators 
here, and I know you have had some seizures. It sounds like we 
do not have our plan entirely together to tackle this, if we do 
not have a concentrated effort in the Netherlands, which is the 
source of production. So if you would provide the subcommittee 
with a detailed outline of how you are going to approach this 
there, we would appreciate it, for the record.
    Mr. Andrejko, you testified about some of the DEA 
enforcement efforts, and I think you also testified about the 
difficulty in dealing with the GHB problem?
    Mr. Andrejko. Yes.
    Mr. Mica. How do we deal with this new designer drug and 
how can we most effectively deal with enforcement? And I think 
you heard the difficulty the local District Attorney had in 
trying to prosecute cases where the evidence literally and the 
means for committing the crime renders the victim unable to 
testify or to be a witness under the current criteria. How do 
we deal with this from a drug enforcement standpoint?
    Mr. Andrejko. To address the initial part of your 
question----
    Mr. Mica. And you did compliment us on the legislation 
before. Does this adequately address the concerns that you have 
heard raised here today?
    Mr. Andrejko. The pending legislation certainly is very 
supportive. GHB was put under the Controlled Substances Act 
back in February of the year 2000, it was made a Schedule 2 
drug. And as a result of the concerns of the Congress and of 
the Attorney General, DEA was tasked with trying to put 
together some type of an enforcement mechanism to report what 
is going on with regard to the use and abuse of GHB in the 
United States.
    And what we did in our operations division in Washington, 
DC, was put together a team of law enforcement officials, both 
from the office of operations agents, intelligence analysts, 
diversion investigators, working very closely with State and 
local offices to try and identify those individuals who have 
been manufacturing and distributing GHB and other club drugs 
throughout the United States.
    That information is being reviewed, it is being shared with 
the Attorney General. I believe she is going to be reporting 
back to your committee and to other elements in Congress the 
result of what those initial findings have been.
    With regard to what we can do in law enforcement to try 
develop evidence to bring to a courtroom to have the victim and 
the episode that the person underwent result in a conviction, 
it is very difficult to try to answer that question from my 
perspective.
    Mr. Mica. I think Mr. Howard brought up an interesting 
aspect of the problem that we face in these prosecutions. I do 
not think that the law, as I have seen drafted, deals with 
that. It is a very unique aspect of dealing with a problem that 
has surfaced. Almost the drug is eliminating the witness's 
memory or ability to testify, and I do not know of any 
legislation that we have or anything that has been proposed 
that deals with something like that. It may be something we 
want to pursue and see if there is something that could be 
included, and I think we may have a shot at passing that 
legislation before the Congress recesses. But if you have any 
suggestions, we would certainly welcome them, by Mr. Howard and 
Mr. Saliba, maybe you could look at that. And we would be most 
willing to explore some tightening of the law.
    Mr. Andrejko. Increasing penalties for those who are 
convicted of trafficking in club drugs would certainly help. It 
would certainly send the right message. Perhaps looking at some 
of the threshold amounts that are set by the prosecution 
offices in the United States could be an advantageous element 
to law enforcement, to try to go ahead and maybe lower the 
amounts which would allow them prosecution on the Federal 
level.
    We have been very successful, for example, in targeting 
traffickers who have been the violent drug traffickers 
throughout the United States, throughout our local enforcement 
program, our met team program. And when we have been able to go 
ahead and use the Federal laws to target those individuals on 
the convictions, we have looked at the statistics that deal 
with, for example, violence and drug use in those communities 
prior to a meth deployment, and then after the meth deployment. 
And we have seen that those numbers, overall throughout the 
United States, have decreased.
    I think you all are aware of the fact, I am sure you are 
aware of the fact that, in many communities, the individuals 
who are the violent criminals, those individuals that commit 
the most violent criminal acts. If you could target those 
individuals, identify them, arrest them and put them in jail, 
there seems to be a decrease then in the resulting amount of 
violence in the area.
    If we could use the same type of logic perhaps with regard 
to club drug manufacturers and distributors, perhaps we could 
have a positive impact on what is going on in this country and 
other areas of the world today.
    Mr. Mica. Thank you. Let me yield now to Mr. Barr, if I 
may.
    Mr. Barr. Thank you, Mr. Chairman. I would like to thank 
our four panel members here, and it reminds me once again why I 
appreciate your holding these field hearings outside of 
Washington, DC. We have four gentlemen here who work very hard 
at actually solving the problems in our community, and they are 
not so much concerned about what the Washington Post might say 
about them, or the policy spin of people in Washington. They 
are concerned with results and their work speaks for 
themselves. And I appreciate very much them being here with us 
today to relate some of the specific experiences that they have 
had on the front lines.
    One of those, Mr. Howard, that I remember from the news, 
and I was intrigued by your brief description of the Iverson 
case. In that case, was there any evidence that the victims, 
the two women victims, had ingested the drugs for the purposes 
of being raped?
    Mr. Howard. No.
    Mr. Barr. Is this--and I know, as you have relayed in this, 
I remember in the retrial, the defendants were acquitted, and 
you also indicated here that the judge seemed to have some sort 
of feeling that the victims were as much to blame for what 
happened as the defendants. Do you see this in other type of 
drug cases, where you have a perpetrator and a victim, and the 
victim takes the mind-altering drugs, yet then becomes a victim 
to acts to which they obviously did not consent, or is this a 
phenomena that you are seeing with regard to date rape drugs?
    Mr. Howard. It is mainly something that is focused upon 
date rape drugs. And unfortunately, it still relates back to 
the misconception about rape itself, that many people 
unfortunately still think that part of the blame lies with the 
victim and not with the defendant. So you can easily see how, 
in a case involving a date rape drug, where in this case, where 
these two young ladies ingested it, simply they thought for 
recreational reasons, to get a mild high. The feeling of the 
judge was that it was the victim's fault. And that causes--it 
has caused us a lot of problems, because that incident took 
place in 1998. We tried it in 1999.
    Even though the police in Atlanta reported a number, and I 
believe over 200 incidents involving these drugs, we have had 
only 5 cases reported at the rape crisis center at Grady. And I 
think that it has had the chilling effect of saying to the 
victims that, if you come to court, then you might be seen as 
the person who was at fault.
    Mr. Barr. I think you were here for the previous panel, at 
least part of their testimony. And one of the witnesses spoke 
about different types of rape kits that can be used and many of 
which are in common usage in this country and which do not 
provide the means to readily identify some of these date rape 
drugs.
    Are there kits that are available, are they in common usage 
or are they cost prohibitive at this point, or for some other 
reason not in common usage?
    Mr. Howard. There are kits available and they do cost more. 
And in fact, even with something as mundane as a urinalysis 
examination to test for the methamphetamines, there is an 
additional cost, a cost that is higher than testing for cocaine 
and marijuana. So there is an additional cost that many--since 
the rape kits are generally paid for by law enforcement 
agencies, many of them have not updated those rape kits to 
include the test for date rape drugs.
    But here again, we have got two other factors that are 
working. One is the fact that the drug will get out of your 
system within about 12 hours. And so that is why I think that 
it is important that the protocols be put together which 
include the medical community so that they will realize that we 
need to test and retrieve this kind of evidence right away. The 
other factor that we still are involved with is the under-
reporting or the lack of reporting or even reporting on a 
timely basis, because even if you report the incidents and it 
is after that time period, there is no way that we can test to 
find out whether or not the drug is in your system.
    Mr. Barr. Given the fact that we know there is under-
reporting and it is not really a new phenomenon, can a case 
such as the Iverson case do tremendous damage in your effort to 
try and get people to report these cases more?
    Mr. Howard. I think it does. I think particularly when you 
take this case in that we actually had an eye-witness, the 
security person from Georgia State, who came in, who responded 
to the 911 call, actually witnessed the sexual assault. And I 
think it does have a chilling effect and I think it has had one 
in our community, when women see this and believe that there is 
really no reason for me to report it.
    You know, that is why I think that it is important that the 
education extend not only to the general public and young 
people, but it also should extend to our judiciary, to 
prosecutors and to law enforcement as well.
    Mr. Barr. Speaking of that, have there been any efforts 
made at the State level to take a look at both funding for some 
of these issues such as the better date rape kits, the rape 
kits, or to look at some of the problems that you have 
identified today with regard to prosecution of some of these 
cases? Is there anything pending at the State general assembly 
or at the Governor's office?
    Mr. Howard. I think right now there is a move--and I think 
Ms. Flowers mentioned that there is a proposal that I am aware 
of--where they are asking for a separate facility from Grady 
Hospital, one that would be operated by nurses as opposed to 
within the hospital complex, that is focused simply on the care 
of women and their reporting. Now that is going on.
    I am not aware of any effort in the State that is afoot to 
change the proof problems that prosecutors run into. The only 
other effort is also something that Ms. Flowers mentioned, is 
the effort to reduce the sentence for the crime of rape.
    As you are aware, right now in the State of Georgia, there 
is simply one crime and that is the crime of rape and the 
sentence is from zero to 20 years and a mandatory minimum of 10 
years. There has been some effort made and an effort made last 
year to actually include the crime of aggravated assault with 
intent to rape, which many people believe will generate some 
new sentences.
    But those are the only things that I am aware of that are 
taking place.
    Mr. Barr. I forget which one, Mr. Andrejko or Mr. Gattison, 
mentioned the Methamphetamine Anti-Proliferation Act that we 
have passed out of Judiciary Committee, I do not think that it 
has come up, has it, Mr. Chairman, on the floor of the House 
yet?
    Mr. Mica. I believe that is correct.
    Mr. Barr. We hope to get that through. If we cannot, we 
will work on it again next year, but we are trying to deal with 
some of this at the national level as well.
    I forget which one of you mentioned this, or maybe more 
than one of you, the problem with the accessibility or 
availability of these drugs through the Internet. Is this a 
problem that is manifesting itself in alarming proportions with 
young people being--having access to the Internet and getting 
these drugs?
    Mr. Gattison. Yes, I think it is a problem because they can 
shop online and they can order stuff overseas online and come 
in through mail facilities right to their homes without ever 
leaving their library or study or wherever they have their 
computers.
    Also there is advertisement for these drugs on the Internet 
where individuals can go again and advertise and shop and buy.
    Mr. Barr. What are they identified as? Do they use some of 
these benign sounding terms that we have heard about?
    Mr. Gattison. That is correct.
    Mr. Barr. I mean they do not advertise them as date rape 
drugs, or do they?
    Mr. Gattison. No, they advertise them with the slang name 
roofies, things of that nature. I know you are aware of our 
smuggling center in Washington that pretty much surfs the net 
looking for all types of international crime and they have 
identified several sites out there on the Web where they are 
selling primarily Ecstasy.
    Mr. Barr. Are current laws sufficient to address this 
problem when you see a concerted effort to sell these drugs 
over the Internet or are there changes that would need to be 
made to Federal law to address that specific problem. And I 
know it is difficult, given first amendment concerns, but are 
these cases being prosecuted, do you know?
    Mr. Gattison. Well, I think they are, I think as best they 
can be prosecuted. We are working with the Web site owners in 
giving us information and identifying those individuals 
involved in that and then we are also going and doing some 
undercover work on the Internet, attempting to purchase 
quantities and identifying people overseas and in the United 
States that are involved in that, and hopefully getting them 
prosecuted for smuggling charges and other Title 21 violations.
    I think, John, you may want to address that a little bit as 
well.
    Mr. Andrejko. A problem that we are seeing on the Internet 
is really dealing with the manufacturing process with 
methamphetamine. It is very, very easy to manufacture 
methamphetamine and what you find on the Internet are how-to 
formulas, if you will. If we were trying to--if I tried, for 
example, to convert the coca paste into the coca paste--I mean 
the coca leaf into the coca paste into the base into the 
hydrochloride, or if you got the opium poppy and tried to 
manufacture that into the morphine and refine it into heroin, 
it is a very difficult process that I could not do, none of us 
probably in this room could do because it requires a tremendous 
amount of chemical knowledge on an individual's part. But with 
regard to methamphetamine, anyone can make it very, very 
easily. You do not need a college education for it, you do not 
need a degree in chemistry. You can be an elementary school 
dropout and it is a very easy process to follow. It can be made 
in the back of a hotel room, in the back of a truck, in a 
garage or someone's house. So we are seeing more and more 
information on how to make, for example, how to manufacture 
methamphetamine on the Internet.
    And the lab locations where we have responded, including 
here in the State of Georgia, we have had printouts from the 
Internet on how to go ahead and manufacture this stuff. That 
documentation was seized at the lab site itself.
    Mr. Howard. Congressman Barr.
    Mr. Barr. Yes, sir?
    Mr. Howard. I just want to mention to you that probably 
most prosecutors are using a manual provided by the American 
Prosecutors Research Institute that talks specifically about 
Rohypnol and the other GHB and the other date rape drugs. And I 
think they issued this in 1998 and at the time that they issued 
it, what the prosecutors complained about is the issuance of 
these drugs through the mail. And I guess it shows how much 
times have changed, because they mention just in passing that 
the recipes are on the Internet, as Mr. Andrejko says, but now 
you can find them all over the Internet, recipes to put 
together these drugs.
    One of the things that I think is particularly interesting 
is that in I believe about 70 foreign countries, the drug 
Rohypnol is in fact legal and so it is legal--it is used as a 
sedative and as a sleeping pill, and so it is legal for them to 
produce it in those countries. And I think, it seems to me, 
that one of the areas that Congress might look at is whether or 
not American drug manufacturers are manufacturing these drugs 
in foreign countries that are later on being shipped back to 
this country and used as date rape drugs.
    Mr. Barr. That is a problem that we had some testimony on a 
couple of years ago. It is a very serious problem.
    Mr. Andrejko, does DEA have a special unit to address the 
problem of date rape drugs?
    Mr. Andrejko. We have a special unit in our headquarters 
building set up to go ahead and coordinate what is going on 
throughout our domestic divisions in the United States, to 
report back then to that unit that will compile the data and 
then bring that data to the attention of the Attorney General, 
who my understanding is supposed to share that information with 
the Congress.
    There is a special operation called Flashback, which is the 
name of the program that goes ahead and tracks that 
information, that will go ahead and assess that information, 
give directions out to the DEA divisions to go ahead and work 
closely with the State and local agencies to try to learn from 
them what is actually happening on the State and local level to 
try to identify those individuals or trafficking groups who 
perhaps are manufacturing and distributing the date rape drugs, 
try to design an enforcement program to go ahead and address 
those issues, but at the same time relate back to the Attorney 
General, to the DEA Administrator, what it is we are seeing in 
the United States. That is an ongoing process that began 
sometime around June-July, the summer months, of this year. And 
it is a program that we are waiting to see what the final 
results will be, but I believe it was mandated for the Attorney 
General to go ahead and do that and DEA was given the focal 
point for that type of reporting element.
    Mr. Barr. There are two programs, one which I am very 
familiar with because it was operational while I was the U.S. 
Attorney, and that is the OCDETF program, the Organized Crime 
Drug Enforcement Task Forces. There is another one, the HIDTA 
or High Intensity Drug Trafficking Area program.
    Do these two programs coordinate with each other and is the 
HIDTA program the most effective way, in your view, to address 
the problem of intensive drug trafficking in certain areas?
    Mr. Andrejko. In my opinion, they are complementary 
programs. When you have a HIDTA in operation in an area, for 
example, like Atlanta and targets are identified and then 
prosecutions take place, the prosecutions that occur are 
brought through the OCDETF program, so one complements the 
other, so to speak. Two different types of funding mechanisms, 
however. And what you have is the HIDTA program looking at some 
of the trafficking groups dealing with limited areas within a 
particular city. You may have the OCDETF program trying to 
encompass a much larger aspect of what the drug problem is. And 
I mention that in passing because the HIDTA program in Atlanta 
focuses just on two counties, Fulton County and DeKalb County. 
So by design, this particular HIDTA program has to deal with 
law enforcement issues in those two counties. The OCDETF 
program, however, encompasses all of the different districts 
throughout the State and can go into more jurisdictional 
investigations as well very freely without some of the 
restraints that sometimes you see in a HIDTA, depending on what 
its mission and goal is.
    Mr. Barr. Mr. Macklin with our committee staff, just a 
little bit ago handed me an article here that just came in 
talking about Ecstasy use in the armed forces. I know we do not 
have anybody here from DOD but Mr. Gattison and Mr. Andrejko, 
is this a problem that you are seeing or are you more aware of 
the increasing problem of date rape drugs in our armed forces?
    Mr. Andrejko. I do not have any information with regard to 
that aspect. However, we could get in touch with our 
headquarters intelligence division, ask them to research that 
and provide you with a response.
    Mr. Barr. Thank you, I would appreciate that if we could, 
Mr. Chairman. That is an angle that apparently is becoming more 
of a problem as well.
    On the earlier panel we spent some amount of time talking 
about the national message, for example, through the OCDETF 
advertising program and we have held some hearings, the 
chairman has held some hearings in Washington focusing on that. 
But we heard that it would be very helpful, from some of the 
other witnesses, to try and do a better job of targeting for 
educational purposes the advertising for date rape drugs, 
methamphetamine, more locally. Particularly from the standpoint 
of our local prosecutors, Mr. Saliba and Mr. Howard, would this 
be of benefit and do you have any particular suggestions as to 
how we might better get those funds to you so that you can use 
them better to address specific problems on which the public 
needs to be educated in your communities?
    Mr. Saliba. I believe it needs to be done. I will let Mr. 
Howard address the funding. He is obviously in his position 
much more involved in that than I am in mine. But to give the 
committee an example, I have a 16-year-old niece and a 12-year-
old nephew who I have the privilege and sometimes duty of 
chaperoning to different events. Last weekend--she is from a 
small town in Alabama, about 50,000 folks--I took her and a 
group of her friends to a concert down in Atlanta. And during 
that concert, I had a chance to talk to them and take them out 
to dinner. They all understand and have been raised properly 
that they should not do drugs, but the questions they were 
asking, based on my position, was things like is Ecstasy really 
that bad. You know, we know about cocaine, we know about 
marijuana, methamphetamine though is not the same thing, is it, 
although it has the exact same chemical effect. And I think 
that shows the deficiency that over the years has developed, in 
that what necessarily by the time funding is completed, the ad 
campaigns are completed, a generic ``do not do drugs'' I do not 
think tells them what they need to know. I think that money 
should come down through whatever process to the States to do 
what one of the prior panelists suggested, find out what is 
needed in each area.
    In the area I prosecute in, we have done a good job of 
educating people of the dangers of cocaine; there are a lot of 
our youth that do not understand that Ecstasy really is a drug 
and it really is harmful. And I think it goes beyond any given 
drug, it goes to a year-to-year trend, what is popular at that 
time, what is available. And I think that that is an area where 
the States are uniquely qualified to determine that need and to 
handle that type of program and I think that it definitely 
needs to be done and it needs to be moved down more to a local 
level to affect more of our young people. Those are the folks 
who grow older, who grow into the drug business, if they are 
already using drugs. And I think the earlier we start and the 
more directed that message is, the better we are.
    Mr. Barr. Thank you. Mr. Howard.
    Mr. Howard. I agree. I believe that it is critical because 
what you get the feeling is that what you are fighting is 
popular culture. And what goes on in our music and 
entertainment industries, there is a message that these drugs 
are OK, where some drugs might be seen as illegal--crack 
cocaine. And I think we need to change that message and one of 
the things that I pointed out is showing people the deadly harm 
that results from the use of what they believe is simply a 
recreational drug that is used to create a mild high.
    I think that what ought to happen, the sources, the grants 
that are already being made available to the States, I just 
think that the amounts ought to be increased and there ought to 
be some specifically designated items just for this purpose. 
And I think that they ought to be made available to 
prosecutors, but it is also a good idea to make them available 
to agencies like the Georgia Task Force on Sexual Assaults, so 
that they will work in conjunction with prosecutors to get out 
the right messages.
    Mr. Barr. Just in conclusion, Mr. Chairman, Mr. Andrejko, 
Mr. Gattison, do you agree with that and are there some 
specific things that you can suggest to us from the Federal 
standpoint that we could be doing to help you in that 
cooperative effort in trying to sort of customize and localize 
that message particularly because of the misinformation and 
misimpression that is out there about this very dangerous 
category of drugs?
    Mr. Andrejko. I think there is. I think more emphasis and 
resources have to be devoted to that area. Back in the latter 
part of July and the early part of August, the DEA recognized 
that there was a major problem, really not only in the United 
States but throughout the world with regard to Ecstasy and 
dangerous drugs and club drugs and all. We convened a panel of 
experts from the world, if you will, the international 
community in Washington, DC. Over 300 people attended, people 
from all facets of both State, Federal and local level and the 
international community.
    One of the panelists had made a presentation with regard to 
something that Mr. Howard referred to a little bit, and that 
was when they went onto the Internet and you go into the 
information bases there, there were so many positive things 
talked about, referred to, shown as examples, with regard to 
the designer drugs and there was nothing on the Internet for 
example to counteract that. And the only program I think that 
was trying to do that was the program out of ONDCP. They were 
trying to put together a series of commercial and other 
information to go into the Internet starting some time in the 
fall. So there is a tremendous amount of money that had to be 
generated to do something with regard to commercials worldwide 
or even just domestically in the United States.
    I know Dr. Alan Leshner with the NIDA program also was 
trying to, on a case-by-case basis as he had gone ahead and 
uncovered statistics and studies and results of the 
debilitating effects of these drugs on the human body, tried to 
get it onto the Internet and start to put as much of that 
information out there for generally used purposes, so to speak. 
But there is not enough in my opinion, also, with regard to 
that area with demand reduction and with drug education and so 
forth. And whatever we could do to bring it down to the local 
level would be very beneficial in my opinion as well.
    Mr. Garrison. To follow up on that, I mentioned earlier 
about the Commissioner's Web site, the Commissioner has 
initiated his Web site where he is trying to address that same 
issue with parents, getting the message out to the public that 
it is a harmful drug. We also have the task force again that 
feeds information to the Commissioner and also to people to 
place that on the Web site.
    And again, the chairman's question earlier about resources 
for specific types of violations, you know, you can only do so 
much with what you have and when you have a trend or you have a 
problem like we have here at Atlanta's Hartsfield, you take 
what you have and you focus it in on those particular problems, 
and then you do the best you can. But of course, if we had 
additional resources, we could come up with specific groups to 
target, specific problems like Ecstasy in this area.
    Mr. Barr. You referred there to the problem at Hartsfield, 
just for the record, I think there has been a lot of 
information and perhaps misinformation about it, the bottom 
left picture there of the x ray. It is my understanding that 
that device is used only with the consent of the person, is 
that correct?
    Mr. Gattison. That is correct.
    Mr. Barr. So it is not that everybody that goes through 
Hartsfield has these x rays. There has to be probable cause, an 
articulable suspicion and so forth to request the person and 
they have to consent to it.
    Mr. Gattison. Right. They have a choice. If there is 
reasonable suspicion that a violation is occurring, the 
inspector gives the passenger the option whether to be 
personally searched by an individual inspector or go through 
the x-ray machine and it has to be concurred by the supervisory 
inspector on duty at the time.
    Mr. Barr. Thank you. Just one final question. We have heard 
some testimony with regard to the Mexican angle to the 
methamphetamine trafficking in particular. Mr. Saliba and Mr. 
Howard, is that problem, from an immigration standpoint, being 
adequately addressed? Are you getting the support that you need 
when you find folks in your communities that are prosecuted or 
that need to be prosecuted and that are here in this country 
illegally, such as in this case from Mexico. Do you get the 
cooperation and the Federal resources that you need from an 
immigration standpoint to assist you?
    Mr. Howard. Well, I can just say that we have had probably 
the greatest amount of cooperation from the FBI. Usually what 
happens with us is that we have a defendant who flees from our 
jurisdiction to escape prosecution. And we have had on many 
occasions to call upon the FBI to assist us in trying to locate 
them. With the Immigration Service, the problem in Atlanta has 
been one of so many people and so few resources. And I am sure 
you are familiar with the claim that if you call the office, 
the telephone will just ring. But the problem, as we have seen 
it, is just that there have been so many people.
    So as my colleague has mentioned, what has been the policy 
for many years in our State was to just send them back. We have 
seen this on many occasions, the same people that are returned 
to countries, in the next year they are right back causing the 
very same problems. And it is compounded by the fact that our 
prison system is so overcrowded. So people are taking whatever 
avenues are available to get defendants taken care of in some 
other means.
    But I think that most of our problems with immigration 
probably have to do, in my experience, with just the large 
numbers of people that we all have to deal with.
    Mr. Saliba. I concur that they are--for years, we have had 
an Immigration agent stationed one or the other of the pretrial 
detention facilities in Cobb County, and they do what they can, 
but there are so many folks that are arrested that have to have 
detainers put on them, so many that go through the system and 
either plead guilty or are convicted, that they cannot 
possibly, with the resources they have, handle every case as 
well as they would like to. They are very cooperative, but I 
think the old saying is under-manned and over-worked. But as an 
agency, they have been very good to our local law enforcement 
folks when they could.
    Mr. Barr. Thank you. Thank you, Mr. Chairman, and I would 
like to again thank the panel members.
    Mr. Mica. Well, first of all, I want to thank 
Representative Barr again for inviting us into his community to 
examine the problem of illegal narcotics and in particular 
today the methamphetamine and date rape drug situation.
    I also want to thank the representatives of the two Federal 
agencies who appeared as witnesses--the U.S. Customs Service 
and Drug Enforcement Administration. We have a responsibility 
as an oversight and investigation subcommittee to make certain 
that our Federal agencies' programs, operations, funding are 
adequate and also effective.
    And I do want to particularly thank the two representatives 
of the District Attorney Offices here today, the local offices, 
for your insight. It is important that the programs that we 
oversee mesh and work effectively with local and State programs 
and also, as Mr. Barr said, all the best ideas do not emanate 
from Washington, DC, so we need your cooperation, your 
recommendations and we appreciate again you coming forward 
today to provide us with your input.
    And to the other panelists who were with us earlier, we 
also appreciate their testimony.
    As I said earlier, and under a unanimous consent request 
from Mr. Barr, the record will remain open for this 
subcommittee for additional testimony, comments, statements 
through the Chair for a period of 2 weeks and those additions 
will be provided to the permanent record.
    Also, I would like to ask Mr. Gattison to please provide 
the subcommittee with information particularly on the re-
establishment of the Customs operations, which are very 
important to the subcommittee.
    Mr. Barr, there being no further business to come before 
this Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources, I declare this meeting adjourned.
    [Whereupon, at 12:25 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T4706.047

[GRAPHIC] [TIFF OMITTED] T4706.048


</pre></body></html>
